 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION


           The National Data Buoy Center
          Should Improve Data Availability
                 and Contracting Practices




                           Final Inspection Report
                          No. IPE-18585/May 2008


                             PUBLIC RELEASE



                    Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                                         Final Report IPE-18585
Office of Inspector General                                                                                                       May 2008

                                                               CONTENTS

Summary .......................................................................................................................................... i
Background ......................................................................................................................................1
Objectives, Scope, and Methodology ..............................................................................................4
Observations and Conclusions.........................................................................................................6
I.   Operational Concerns Contribute to the Declining Availability of Data from Weather
     Buoys ......................................................................................................................................6
     A.   Frequent unsuccessful service visits complicate NDBC’s efforts to maintain data
          availability......................................................................................................................8
     B.   NDBC needs to improve its planning for service visits and coordination with the
          Coast Guard .................................................................................................................11
     C.   NDBC should better define its inventory deficiencies and take action to address
          them..............................................................................................................................16
     D.   NDBC’s deployment of oceanographic instruments on weather buoys was
          premature .....................................................................................................................17
II. The Incentive Provisions and Other Aspects of NDBC’s Acquisition for Support
     Services Raise Concerns .......................................................................................................20
     A.   NOAA did not properly execute contract provisions for extending the term ..............20
     B.   The fee scale for NDBC’s contract limits contractor accountability and
          incentives .....................................................................................................................23
     C.   NDBC did not adequately justify its choice of a single acquisition for all support
          services.........................................................................................................................26
III. NDBC Actively Monitors Contractor Performance But Should Improve Some Aspects
     of Contract Administration ...................................................................................................30
     A.   NDBC maintains a well-documented process for assessing contractor performance
          and contract prices .......................................................................................................30
     B.   Contractor performance metrics are not well aligned with NDBC’s core goal of
          maintaining data availability ........................................................................................32
     C.   NDBC has not provided the contractor with timely and transparent performance
          requirements.................................................................................................................35
     D.   NDBC has not established an adequate process for reviewing the contractor’s
          invoices ........................................................................................................................39
IV. Commerce Should Provide Guidance on Award-term Contracts and Clarify Procedures
     for Departmental Review of Major Acquisitions .................................................................42
     A.   Commerce lacks guidance on award-term contract provisions ...................................42
     B.   Commerce has not defined policies and procedures for its Acquisition Review
          Board ............................................................................................................................42
V. Improved Coordination and Greater NOAA Management Oversight Could Facilitate
     Transitions from Research to Operations .............................................................................44
U.S. Department of Commerce                                                                                       Final Report IPE-18585
Office of Inspector General                                                                                                     May 2008

       A.Unclear data collection requirements contributed to post-transition concerns
         about DART data management ....................................................................................44
   B.    Inadequate planning and limited NOAA oversight contributed to transition
         difficulties for the TAO buoys .....................................................................................46
   C.    NOAA’s 2005 administrative order on transitions does not fully address
         difficulties arising from the DART and TAO transitions ............................................48
   D.    Post-transition buoy research and development efforts for existing platforms are
         not adequately coordinated ..........................................................................................49
Summary of Recommendations.....................................................................................................52
Appendix A: NOAA Response to Draft Report.............................................................................56
Appendix B: Chief Financial Officer and Assistant Secretary for Administration Response to
Draft Report...................................................................................................................................70
U.S. Department of Commerce                                                 Final Report IPE-18585
Office of Inspector General                                                               May 2008

                                         SUMMARY

The National Data Buoy Center (NDBC) is part of the National Weather Service and operates
three major buoy arrays as well as a network of coastal marine observing stations. These systems
provide critical data on oceanic and atmospheric conditions that is used by weather and hurricane
forecasters, researchers, climatologists, oceanographers, commercial fishers, and recreational
boaters, among others. NDBC is located at the Stennis Space Center in Bay St. Louis,
Mississippi, and has operated a network of off-shore weather buoys and unmanned coastal
observing stations (Coastal Marine Automated Network or C-MAN stations) since 1990. In 2001
and 2005 respectively, NDBC began to assume responsibility for operating moored buoys
supporting NOAA’s Deep-Ocean Assessment and Reporting of Tsunami (DART) program and
the Tropical Atmosphere Ocean (TAO) program that were developed and formerly operated by
NOAA’s Pacific Marine Environmental Laboratory (PMEL). In August 2005, Hurricane Katrina
made landfall at the Stennis Space Center, resulting in moderate damage to NDBC facilities but
great disruption and major losses for many NDBC personnel.

NDBC currently operates and maintains 103 weather buoys, 56 C-MAN stations, 34 DART
buoys, and 55 TAO buoys. While the center is staffed with 49 government employees, most
operational functions are performed by contractor staff. In 2005, NDBC signed an indefinite-
delivery indefinite-quantity contract with Science Applications International Corporation (SAIC)
to provide support services, including maintenance and operations of the buoy networks. The
contract has a $500 million ceiling, with a 5-year base term and the possibility of five one-year
extensions. Under a 1993 memorandum of understanding, the U.S. Coast Guard provides ship
transit services for NDBC so that it can repair and maintain its weather buoys. The Coast Guard
also maintains a small staff at NDBC. NDBC leases privately-owned vessels to service the
DART buoys and uses a dedicated NOAA ship, the Ka’imimoana, to service the TAO buoys.
NOAA vessels also provide some support for weather buoy maintenance when their schedules
allow this.

From April to September 2007, our office conducted a program evaluation of NDBC to
determine whether the center effectively maintains and repairs its marine buoys and C-MAN
stations and whether it provides adequate and reliable information from these buoys and stations
to meet the needs of the data users. We also assessed the structure of NDBC’s support services
contract and how the center administers the contract. Finally, we reviewed the recent transfer of
the TAO and DART programs to NDBC. Our specific observations are as follows:

Operational concerns contribute to the declining availability of data from weather buoys.
The center has generally met data availability goals for the DART and TAO arrays and has
maintained consistently high data availability for the C-MAN stations. However, we found that
the availability of data from the weather buoys had fallen sharply since August 2006—the
average data availability for the April to June 2007 quarter (73.8 percent) was over 14 percentage
points below the 6-year average data availability for the April to June quarter of 88.1 percent.
While data availability has recovered somewhat since the April low, reflecting a normal seasonal
improvement during the summer, it remained below the level of the previous summer. When
buoy data is not available, weather and hurricane forecasters have more difficulty in making
forecasts for areas covered by the buoys and there is less information available for the



                                                i
U.S. Department of Commerce                                                   Final Report IPE-18585
Office of Inspector General                                                                 May 2008

development and refinement of forecasting models. The decline in data availability raises
questions about both the effectiveness of NDBC’s maintenance and repair operations as well as
the reliability of the buoy systems.

In reviewing NDBC’s operation of its weather buoys, we found that frequent unsuccessful
service visits complicate the center’s efforts to maintain data availability. Coast Guard records
indicated that 51 of the 101 weather buoys (as of July 2007) received multiple on-site service
visits from July 2005 to July 2007. The actual average time interval between service visits for
these buoys was only 107 days, showing that in many cases the same buoys have required repeat
service visits within a short period of time. Contractor error resulted in unsuccessful service
outcomes for approximately 18 percent of the service visits in our sample, which included the
available service reports for the 51 buoys with multiple service visits. Factors such as incomplete
records of each buoy’s technical specifications, inadequate pre-trip preparation, inexperienced
technicians, and insufficient training contributed to these errors. NDBC should work with its
contractor to address these issues and reduce the number of unsuccessful service visits.
Figure 1: A Weather Buoy (left) and DART Buoy (right) in the NDBC Service Facility




Source: NDBC

NDBC and contractor personnel claim that a shortage of ship time from the Coast Guard
complicates buoy maintenance and repair efforts, but NDBC could not document this shortage or
show specific cases where ship transit requests have been denied. Because NDBC has no
dedicated funding to hire private vessels to service weather buoys, it has to rely on the Coast
Guard for most of its ship transit requirements for these buoys. However, we found that NDBC
has not clearly defined how frequently service visits are required to maintain data availability, in


                                                 ii
U.S. Department of Commerce                                                    Final Report IPE-18585
Office of Inspector General                                                                  May 2008

part because it does not have a clear understanding of the reliability of key buoy components. In
addition, the center is not providing the Coast Guard with complete information on its future
transit requirements, which may prevent NDBC from fully utilizing available Coast Guard
resources. NDBC staff also frequently cited spare or replacement part shortages as a constraint in
maintaining high levels of data availability for its weather buoys. To improve NDBC’s ability to
maintain data availability, we found that the center and its contractor should (1) more clearly
define required service schedules for its buoys, (2) improve coordination with the Coast Guard
on scheduling ship transit requirements, and (3) identify and prioritize its inventory deficiencies
and take action to address them.

We also found that NDBC deployed three new types of oceanographic sensors on 41 separate
weather buoys and C-MAN stations without first ensuring that they would work properly. Two
of the three new oceanographic sensors proved to be unreliable; while the point-source current
sensors were working adequately, less than a third of the acoustic current and salinity sensors
were functioning at the time of our review. Once NDBC develops a reliable configuration of
these sensors on its weather buoys, it must retrofit the 25 buoys and 2 C-MAN stations with
faulty sensors to correct the problems. In the future, NDBC should test new sensors on a smaller
number of buoys before widely deploying them. (See page 6.)

The incentive provisions and other aspects of NDBC’s acquisition for support services raise
concerns. Provisions in the center’s support services contract for extending the contract term are
not clearly defined, leading to varying interpretations of the provisions by government and
contractor staff. The contract also did not establish prices for services to be provided beyond the
five-year base term, forcing the government to negotiate these prices on a non-competitive basis
if the contract term is extended. In addition, the approved acquisition plan did not explicitly grant
a deviation from the general legal prohibition on contract terms that are longer than five years.
NDBC should address these concerns and obtain a legal opinion from the Department’s Office of
General Counsel on the contract term before extending the contract beyond its five-year base
term. Alternatively, NDBC should recompete the contract before the expiration of the base term.

We also found that the fee scale established by NDBC limits contractor accountability and does
not establish effective incentives for achieving superior performance. The fee scale varies
depending on specified performance criteria, thus providing a financial incentive for contractor
performance. However, the minimum and maximum fee amounts vary by only 2.75 or 3.75
percent (depending on the task order type), and this narrow range is divided into six separate fee
rates, with the marginal difference in the fees awarded for the different performance ratings as
small as 0.25 percent of the estimated task order value. Even for performance that is rated as
“satisfactory” or worse, the contractor received fee amounts above the minimum fee specified in
the contract. During our review, NDBC modified the fee scale to address these concerns.
However, for future contracts with financial incentives, NOAA should ensure that the incentive
provisions provide more effective motivations for contractor performance.

In developing the acquisition plan for its current support services contract, NDBC combined
virtually all of its support requirements into one acquisition, including buoy maintenance and
repair services, data management services, and office support functions such as help desk
support and mail delivery. NDBC did not adequately justify the decision to combine all



                                                 iii
U.S. Department of Commerce                                                     Final Report IPE-18585
Office of Inspector General                                                                   May 2008

requirements into one acquisition, as required by the NOAA Acquisition Handbook, and we
found that some of these services could be provided by other contractors with minimal disruption
to data buoy operations. NDBC should evaluate the feasibility of developing separate acquisition
strategies for these services and better justify any decision to retain its consolidated acquisition
structure. (See page 20.)

NDBC actively monitors contractor performance but should improve some aspects of
contract administration. NDBC regularly assesses its contractor’s performance, prepares
independent price estimates for fixed-price task orders, and documents its price negotiations.
Despite performing well on several of these oversight functions, we found weaknesses in some
aspects of NDBC’s contract administration that need to be addressed.

The contractor performance metrics developed by NDBC are not fully aligned with NDBC’s
core data availability goals and were not provided to the contractor at the start of the
performance period. The metrics often do not give much weight to the organization’s core goal
of maintaining data availability. Additionally, NDBC holds the contractor accountable for three
sets of quarterly data availability goals that are different from the annual goals established for the
center by weather service management. NDBC should align the contractor’s performance metrics
more closely with the center’s core data availability function. NDBC should also ensure that the
contractor is held accountable for the same data availability performance metrics in its various
task orders and that the contractor’s metrics are consistent with NWS’s data availability goals for
the center.

NDBC has also been late in communicating its performance expectations to the contractor,
leaving the contractor uncertain about what performance standards it is expected to meet in order
to obtain performance incentives, including higher fee amounts and an extension of the
contract’s term. NDBC needs to define its performance requirements in a timely manner and
communicate them promptly to the contractor. NDBC also uses a customer service performance
metric that has not been adequately disclosed to the contractor. We also found weaknesses in
NDBC’s procedures for reviewing invoices from the contractor that should be addressed. (See
page 30.)

Commerce should provide guidance on award-term contracts and clarify procedures for
departmental review of major acquisitions. We found that the Department lacks guidance on
the use of award-term incentives in its contracts, which likely contributed to weaknesses in the
design and execution of the award-term provisions in NDBC’s support services contract. We also
found that Commerce does not have clearly defined policies and procedures for its Acquisition
Review Board, and no departmental policy requires that contracting officers follow the board’s
recommendations. As a result, there was no process to ensure that NOAA satisfactorily followed
the board’s recommendation to obtain guidance on the potential term of the contract from the
Office of General Counsel. In order to facilitate the effective use of award-term provisions in
future acquisitions and clarify the Acquisition Review Board’s role in and authority for
evaluating acquisitions, Commerce should prepare guidance for its contracting officers on
award-term contracts and issue an administrative order clarifying the policies and procedures for
its Acquisition Review Board. (See page 42.)




                                                 iv
U.S. Department of Commerce                                                  Final Report IPE-18585
Office of Inspector General                                                                May 2008

Improved coordination and greater NOAA management oversight could facilitate future
transitions from research to operations. Difficulties encountered during the transitions of the
DART and TAO buoy arrays from PMEL to NDBC highlight the need for better planning and
coordination when moving systems from the research phase to operations. For example, we
found that data collection requirements for the DART system were not clearly defined by PMEL
and NDBC as part of the transition. The lack of clear data collection requirements was a
contributing factor to the loss of important observational data needed by researchers studying the
2004 Sumatra tsunami. Had PMEL and NDBC better planned for and fully addressed data
collection requirements as part of the DART transition, the loss of critical DART data for this
major tsunami event might have been minimized. In addition, NOAA initially did not provide
adequate funds for the TAO transition, and NDBC had difficulty obtaining adequate
documentation and technical specifications from PMEL for the TAO system. NOAA researchers
also questioned the rationale for the TAO transition and expressed concern about NDBC’s ability
to meet evolving requirements for the systems that have been transferred. In some cases, NOAA
personnel who requested that NDBC make changes to meet emerging requirements were either
unsure about the status of their requests or questioned NDBC’s willingness to make changes in
response to such requests.

To prevent similar problems from complicating future transitions, NOAA management should
exercise proper oversight to ensure that data requirements and technical specifications are clearly
defined prior to the transition. In addition, NOAA should ensure that adequate funding is
available to cover the transition costs. NOAA should also seek to address the concerns of its
research community by ensuring that future transition plans clearly explain the rationale for the
transition and document how the benefits outweigh the costs. NOAA should update its
administrative order on transitions to address these and other issues raised during the DART and
TAO transitions. Additionally, NOAA should ensure that NDBC develops an appropriate
process for responding to future data requirements for the systems that it manages.

In addition, we found that there is a need for better internal NOAA communication and
cooperation on research and development projects, such as the ones that PMEL and NDBC are
undertaking to improve the design of the DART and TAO arrays for the future. Although PMEL
and NDBC are aware of each other’s research efforts, they have not worked closely together or
consulted on the scope and objectives of their projects. Since both buoy designs may have a
future role in NOAA buoy operations, NOAA should monitor these projects to ensure that they
are not duplicative and that their design specifications consider the needs of all relevant NOAA
organizations as appropriate. (See page 44.)

On page 52, we list a summary of our recommendations to address the issues outlined in this
report.



The Deputy Under Secretary for Oceans and Atmosphere provided a thorough response to our
draft report that indicated NOAA’s concurrence with each of our recommendations and outlines
extensive actions that it has taken or plans to take to address our recommendations. A discussion
of NOAA’s response to each recommendation and its actual or planned actions to implement the



                                                 v
U.S. Department of Commerce                                                 Final Report IPE-18585
Office of Inspector General                                                               May 2008

recommendation follows each relevant section in the report. NOAA’s response is attached to this
report in its entirety as Appendix A.

The Department’s Chief Financial Officer and Assistant Secretary for Administration provided a
separate response that concurred with our recommendations involving certain acquisition issues
and outlined appropriate steps to address these recommendations. This response is attached to the
report in its entirety as Appendix B.




                                               vi
U.S. Department of Commerce                                                         Final Report IPE-18585
Office of Inspector General                                                                       May 2008

                                           BACKGROUND

The National Data Buoy Center (NDBC), part of NOAA’s National Weather Service (NWS), has
operated and managed the national data buoy network since 1970. 1 NDBC’s mission is to
provide comprehensive, reliable systems and marine observations to support NWS and NOAA,
promote public safety, and satisfy customer needs. The center is primarily responsible for buoy
operations, maintenance, and repair; data management and distribution; and long-term planning
to ensure systems meet future requirements.

NDBC is located at the Stennis Space Center in Bay St. Louis, Mississippi, and at the time of our
review was staffed by 49 federal employees and 158 contracting personnel. The center’s director
reports to the NWS Office of Operational Systems in Silver Spring, Maryland. NDBC staff is
organized into three groups, with each group’s manager reporting to the center’s director (see
figure 1). The data management and communications group collects, analyzes, and distributes
real-time buoy observational data. Employees within the observing systems group manage buoy
programs; perform buoy repair, maintenance, and engineering functions; and coordinate Coast
Guard and other ship support. The resource management group handles financial responsibilities
and program support functions such as property management and logistics.

                               Figure 1: NDBC Organizational Chart




Source: NDBC



1
 When NOAA was formed in 1970, the organization was called the NOAA Data Buoy Office (NDBO) and was part
of the National Ocean Service (NOS). In 1982, NDBO was renamed the National Data Buoy Center and reorganized
under NWS.


                                                     1
U.S. Department of Commerce                                                          Final Report IPE-18585
Office of Inspector General                                                                        May 2008

In FY 2006 and 2007, NDBC’s base appropriation was $23.2 million, which includes amounts
for both staff salaries and the cost of contractor support for buoy operations. In 2005, the center
also received funds from a $17.2 million supplemental appropriation to NOAA for deploying
additional hurricane-detection buoys. In 2006, the center received a separate appropriation of
$4 million for adding oceanographic sensors to its existing weather buoys.

NDBC has primarily used contract personnel to conduct its operations since 1980. Its current
contract, which began in July 2005, is performance based, 2 and provides for maintenance of the
center’s marine observing systems, improvements in buoy technology and data management
systems, and deployment of additional buoys. The contract has a potential value of $500 million,
with five base years and five option years; actual expenditures on the contract during the first
two years (July 2005 to June 2007) totaled $37.7 million. The contracting officer and her staff
are located at NDBC but report to the Acquisition and Grants Office at NOAA’s headquarters in
Silver Spring, Maryland. 3 Various NDBC managers perform contract administration tasks,
including the center’s Technical Assistant, who serves as the contracting officer’s representative.
The director of NWS’ Office of Operational Systems in Silver Spring will determine whether to
grant an extension to the contract’s base term.

NDBC is responsible for four buoy arrays that have significantly increased in size over the past
30 years. In 1977, the center managed 20 weather buoys and 1 coastal marine automated network
(C-MAN) station. Weather buoys collect general and hurricane weather information. C-MAN
stations are unmanned marine platforms located on lighthouses, piers, and offshore navigation
platforms that collect information on the atmospheric and marine conditions at the site. Today,
NDBC maintains 103 weather buoys and 56 C-MAN stations (see table 1), 34 Deep-ocean
Assessment and Reporting of Tsunamis (DART) buoys, and 55 Tropical Atmosphere Ocean
(TAO) buoys. NOAA’s Pacific Marine Environmental Laboratory developed the DART and
TAO arrays. It started transitioning DART operations to NDBC in 2001 and began handing over
TAO operations in 2005. NDBC assumed full responsibility for DART in 2003, and the center
estimates that the TAO transition will be completed in 2013.

              Table 1: NDBC Buoys and C-MAN Stations During the Last 30 Years

      Year     Weather Buoys         C-MAN Stations         DART Buoys           TAO Buoys        Total
     1977           20                    1                     0                    0             21
     1987           44                   40                     0                    0             84
     1997           71                   67                     0                    0            138
     2007          103                   56                    34                   55            248
     Source: NDBC



2
  In 1995 and 2001 audits, Commerce OIG reviewed NDBC’s contracting arrangements and recommended that
NOAA shift to a performance-based contract and maximize the use of firm-fixed price acquisitions.
3
  Formerly, contracting staff at the center reported to the NDBC director. During 2007, in response to a
recommendation from the Government Accountability Office (GAO), NOAA formally changed the reporting
structure for these staff members so that they now work for the Acquisition and Grants Office at NOAA
headquarters.


                                                     2
U.S. Department of Commerce                                                        Final Report IPE-18585
Office of Inspector General                                                                      May 2008

Under a 1993 memorandum of understanding (MOU) between the United States Coast Guard
and NOAA, the Coast Guard transports contractor technicians, equipment, and buoys to most of
the 103 weather buoys. The MOU anticipates that the Coast Guard will provide up to 281 days of
ship time annually to support data buoy operations, although the number of days actually
provided to NDBC in recent years has been fewer. NDBC leases private ships to service the
DART buoys and relies on the Ka’imimoana, a dedicated NOAA vessel, to service the TAO
buoys. NOAA vessels also provide some support for weather buoys maintenance when their
schedules permit this.

These buoy arrays provide valuable information to a variety of users within and outside of
NOAA (see table 2). For example, meteorologists at NWS’ weather forecast offices use buoy
data to make forecasts and issue warnings within their local areas. Forecasters at the National
Hurricane Center also utilize buoy information as they track tropical storms and hurricane
developments. DART buoy data assists NOAA’s tsunami warning centers as they determine
whether seismic activity will generate tsunami waves and is also used by tsunami researchers and
forecasters in other countries. TAO buoy information aids climate researchers’ monitoring of El
Niño and La Niña occurrences. Commercial fishing vessels, recreational boaters, and surfers also
use buoy observations. Additionally, climate researchers and other scientists make use of the
historical data collected by NDBC to inform long-term studies and develop and refine models.

                     Table 2: NDBC’s Observing Systems and Data Uses
                    Major Users               Key Observations                        Locations
Weather Buoys       Meteorologists,           Wave height and period, wind            Gulf Coast,
                    National Hurricane        speed and direction, air and water      Atlantic Coast,
                    Center, researchers,      temperature, barometric pressure        Pacific Coast,
                    commercial fishers,                                               Alaska, Caribbean,
                    recreational boaters                                              Great Lakes
C-MAN               Meteorologists,           Wind speed and direction, air and       Coastal locations in
Stations            National Hurricane        water temperature, barometric           continental U.S.,
                    Center, researchers,      pressure                                Alaska, Great
                    commercial fishers,                                               Lakes
                    recreational boaters
DART Buoys          Tsunami Warning           Water column height                     Atlantic and Pacific
                    Centers, researchers                                              Basins, Gulf of
                                                                                      Mexico
TAO Buoys           Weather and climate       Sub-surface conditions, including       Tropical Pacific
                    scientists, El Niño and   salinity, density, and temperature
                    La Niña researchers
Source: NDBC

Finally, the center manages the Volunteer Observing Ship (VOS) program and serves as the data
processing manager for the Integrated Ocean Observing Systems (IOOS). VOS volunteers on
approximately 1,000 ships make weather observations throughout the world and send this
information to NDBC. Regional associations throughout the United States deploy buoys within
their local areas, and NDBC collects and distributes these buoy observations as part of the U.S.
IOOS network, a system that provides users with ocean data and observations.




                                                  3
U.S. Department of Commerce                                                Final Report IPE-18585
Office of Inspector General                                                              May 2008

                    OBJECTIVES, SCOPE, AND METHODOLOGY

We conducted this program evaluation to assess the National Data Buoy Center’s overall
management and operation of marine buoys and coastal marine stations. We assessed whether
NDBC
   • Meets user needs with the data provided from the various platforms;
   • Has adequate processes for maintaining and repairing marine buoys and
      C-MAN stations;
   • Responds appropriately to buoy data losses; and
   • Has an effective acquisition strategy and proper administration and oversight for the
      support services contract.

We sought to determine whether NOAA
  • Provides appropriate channels for marine observation data customers to communicate
      their needs;
  • Has effectively managed transitions of buoy programs to NDBC;
  • Coordinates buoy development efforts; and
  • Plans to further develop multipurpose maritime observation platforms.

Our fieldwork to accomplish our objectives entailed the following:
   • Site visits—
          ¾ NDBC headquarters in Bay St. Louis, Mississippi;
          ¾ The Pacific Marine Environmental Laboratory in Seattle;
          ¾ The Atlantic Oceanographic and Meteorological Laboratory in Miami;
          ¾ The Ocean Prediction Center in Camp Springs, Maryland;
          ¾ The National Hurricane Center in Miami;
          ¾ Weather forecast offices in Sterling and Wakefield, Virginia; New Orleans;
              Miami; and Seattle;
          ¾ The Atlantic Marine Operations Center in Norfolk, Virginia, and the Pacific
              Marine Operations Center in Seattle.
   • Document/procedural reviews—
          ¾ Observational data from C-MAN stations and weather, DART, and TAO buoys.
          ¾ All available trip reports (prepared by the contractor and the Coast Guard) from
              July 2005 to July 2007 for the 51 (out of 101) weather buoys that received
              multiple service visits during that 2-year period. Records were available for 122
              service visits, which comprised our sample.
          ¾ Information on past buoy data availability rates provided by NDBC;
          ¾ Documentation for NDBC’s current support services contract, including
              contractor quarterly performance assessments, task orders, and task management
              plans;
          ¾ NOAA’s observing systems requirements lists and database;
          ¾ NDBC’s process for assessing contractor performance;
          ¾ NDBC and contractor information on inventory records, service schedules, field
              service plans;
          ¾ Equipment reliability studies and fleet allocation plans;
          ¾ DART and TAO documentation and transition plans; and


                                               4
U.S. Department of Commerce                                                 Final Report IPE-18585
Office of Inspector General                                                               May 2008

           ¾ Acquisition guidance in the Federal Acquisition Regulation (FAR), Commerce
             Acquisition Manual, NOAA’s Acquisition Handbook, and other relevant
             acquisition or contracting procedures and guidance.

   •   Interviews—
           ¾ Staff at the sites we visited (see sites listed above);
           ¾ Members of NOAA’s Observing Systems Council (NOSC) and other NOAA
               groups responsible for identifying and prioritizing observing system requirements;
           ¾ Weather forecasters and managers at coastal NWS weather forecast offices and
               NOAA’s tsunami warning centers, and other users of buoy data to discuss needs
               and requirements;
           ¾ Managers, engineers, and technicians working on NDBC’s support services
               contract to discuss buoy maintenance and repairs;
           ¾ United States Coast Guard, Navy, and NOAA Corps officers regarding ship
               support;
           ¾ Officials from the Department of Defense Office of Inspector General, the
               Defense Contract Management Agency, and the Defense Contract Auditing
               Agency (DCAA) on contract review issues; and
           ¾ Commerce’s Office of General Counsel, the Commerce Acquisition Review
               Board, and Commerce and NOAA procurement officials regarding the NDBC
               contract.

During the review and/or at its conclusion, we discussed our findings with the then Assistant
Administrator for Weather Services and Director of the National Weather Service, the NWS’
director of the Office of Operational Systems, NOAA’s director of the Office of Acquisitions
and Grants, and NDBC’s director, deputy director, and contracting officials.

We conducted our fieldwork from April through September 2007. We performed this evaluation
under the authority of the Inspector General Act of 1978, as amended, Departmental
Organization Order 10-13, dated August 16, 2006, and in accordance with the 2005 Quality
Standards for Inspections issued by the President’s Council on Integrity and Efficiency.




                                               5
U.S. Department of Commerce                                                                  Final Report IPE-18585
Office of Inspector General                                                                                May 2008

                                           OBSERVATIONS AND CONCLUSIONS

I.                       Operational Concerns Contribute to the Declining Availability of Data from Weather
                         Buoys

In recent years, NDBC’s role has grown as it has operated an expanding fleet of moored weather
buoys and C-MAN stations and assumed responsibility for operating moored buoys supporting
NOAA’s DART and TAO programs from NOAA’s Pacific Marine Environmental Laboratory.
Through these transitions, NDBC has generally maintained consistency in the data available
from the DART, TAO, and C-MAN platforms. Data provided by NDBC shows that the center
has regularly exceeded the performance target of 80 percent data availability for the DART
array, averaging 88 percent from July 2005 to July 2007. Working with PMEL, NDBC has also
largely met or exceeded the 80 percent data availability target for TAO. PMEL established the 80
percent goals for DART and TAO based on its experience in operating those systems when they
were research programs, and they are reflected in NWS’ performance plans for NDBC
management. (See figure 2.) Likewise, data availability for its C-MAN stations over the past 2
years has averaged 90 percent or higher, which is greater than NWS’ 88 percent C-MAN
performance target established for NDBC management (see figure 3).

                                      Figure 2: DART and TAO Data Availability for 2007

                         100.0%                                                         Data Availability Goal

                          95.0%

                          90.0%
     Data Availability




                          85.0%

                          80.0%

                          75.0%

                          70.0%

                          65.0%

                          60.0%
                                  Jan-07   Feb-07   Mar-07   Apr-07   May-07   Jun-07      Jul-07    Aug-07

                                                                TAO     DART

Source: NDBC

However, NDBC reported that data availability for the weather buoys has declined, dropping to a
3-year low of 71.7 percent in April 2007, approximately 10 percentage points below its level for
both April 2006 and 2005. Additionally, the average data availability for the April to June 2007
quarter (73.8 percent) was more than 14 percentage points below the 6-year average for the same
quarter (88.1 percent). This drop was broad-based and not isolated to a particular region or type


                                                                6
U.S. Department of Commerce                                                            Final Report IPE-18585
Office of Inspector General                                                                          May 2008

of buoy hull. While data availability had recovered to 82 percent in August 2007, reflecting a
normal seasonal improvement during the summer, it remained below its August 2006 level (88.1
percent), its 10-year average of 90.2 percent, 4 and NWS’s 85 percent goal for average annual
data availability. (See figure 3.)

                                   Figure 3: Weather Buoy and C-MAN Data Availability

                          100.0%                                           10-Year Average Data Availability
                                                                           for Weather Buoys

                          95.0%

                          90.0%
      Data Availability




                          85.0%

                          80.0%

                          75.0%

                          70.0%

                          65.0%

                          60.0%




                              Ju 7
                              Ju 6
                              Ju 5




                             M 07
                             M 05




                             M 06




                             Ja 6
                             Ja 4




                             Ja 5




                                     7
                             Se 6
                             Se 4




                             Se 5




                             N 6
                             N 4




                             N 5




                             M 7
                             M 6
                             M 5




                                  -0
                                  -0




                                  -0




                                  -0
                                  -0
                                  -0




                                 l-0
                                 l-0
                                 l-0




                                 l-0




                                   0
                                   0




                                   0




                                   0
                                   0




                                   0
                                  -




                                  -




                                  -
                                p-
                                p-




                                p-




                                n-
                                n-




                                n-




                               ar
                               ar




                               ar




                               ay
                               ay




                               ay




                              ov
                              ov




                              ov
                              Ju




                                                        Weather Buoys    C-MAN

Source: NDBC

Many variables affect data availability, including the reliability of the buoys, weather events,
vandalism, and the ability of the center to maintain and repair the buoys. To explain the declines
in data availability for the weather buoys, NDBC pointed to shortages in funding and transit
resources for the weather buoys and an increased number of buoys in Alaskan waters. In
contrast, NDBC noted that funding has been more stable for the DART and TAO systems and
the center has direct control over ship transit scheduling for those systems. It also noted that
accessing the land-based C-MAN stations is often easier than accessing the weather buoys,
which must be serviced by a ship because of their offshore locations.

We looked in detail at the three explanations offered by NDBC for the decline in weather buoy
data availability, but found that they did not mitigate the specific issues raised by our review.
First, NDBC managers noted that Coast Guard’s provision of ship transit resources fell during
fiscal year 2004—causing a delayed drop in data availability due to deferred maintenance. We
confirmed that NDBC used fewer days of Coast Guard ship transit during fiscal years 2002 and

4
    The 10-year average was calculated by NDBC’s Data Analysis Center.


                                                           7
U.S. Department of Commerce                                                  Final Report IPE-18585
Office of Inspector General                                                                May 2008

2004 than it has in other recent years. However, data availability did not show major declines
during 2002 and 2004. We could not clearly tie the declines in ship transit during 2002 and 2004
to data availability declines during 2006 and 2007, but we also could not rule out such a latent
effect. Regardless of past levels of ship transit support by the Coast Guard, we found
opportunities for improved coordination with the Coast Guard on service scheduling could result
in better ship transit support for NDBC.

Second, NDBC managers noted that the center has an increasing number of buoys in Alaskan
waters, which are more difficult to maintain because of harsh weather conditions and difficulty
in reaching the buoys to service them. NDBC noted that the number of weather buoys in Alaska
went from five in 2001 to 19 in 2007. As of the second quarter of 2007, NDBC reported data
availability for these 19 buoys was only 57 percent, thus contributing to the overall decline in
data availability. We confirmed that availability for the Alaskan buoys was lower than that of the
other weather buoys in late 2006 and early 2007, although data availability for the Alaska buoys
was better than that of the non-Alaskan weather buoys until the third quarter of 2006. When the
Alaska buoys are excluded, the 2006 and 2007 data availability scores for the remaining buoys
increases by a few percentage points, but this does not explain all of the recent drop in data
availability scores. For example, the scores for March 2007 improve from 71 percent to 74.9
percent and scores for December 2006 improve from 82.4 percent to 84.4 percent.

Finally, NDBC managers told us that the center’s per-buoy base funding has fallen over 30
percent in real terms for the weather buoys and C-MAN stations. While funding levels can
certainly have an impact on the center’s operations, the analysis presented to us included many
assumptions and did not explicitly show how changes in funding levels have affected data
availability and the ability of NDBC to maintain and operate buoys. Accordingly, we found it
more useful to evaluate direct measurements of the center’s capacity to service buoys by
assessing the center’s management and execution of maintenance and repair activities and the
availability of parts, technicians, and ship transit to support these activities. We discuss
opportunities for NDBC to improve its operations and maintenance of the weather buoys within
its existing resource constraints and highlight areas where the center could better define gaps
between its required and actual resources, if such gaps exist.

A. Frequent unsuccessful service visits complicate NDBC’s efforts to maintain data
   availability

Coast Guard records regarding buoy service transport indicate that 51 of the 101 weather buoys
active as of July 2007 received multiple on-site service visits during the period of July 2005 to
July 2007. 5 NDBC plans for service visits every 2 years, but the actual average time between
visits to the buoys that received multiple services visits was only 107 days (roughly 3.5 months),
showing that in many cases the same buoys have required repeat service visits after a short
period of time.

We evaluated all the available trip reports from the Coast Guard and the contractor for the 51
buoys that received multiple service visits from July 2005 to July 2007 in order to better


5
    Since that time, NDBC has deployed two additional buoys.


                                                         8
U.S. Department of Commerce                                                           Final Report IPE-18585
Office of Inspector General                                                                         May 2008

understand the reasons for the multiple service visits. 6 The reports indicate that preventable
errors by the contractor contributed to unsuccessful service outcomes for 18 percent of the
service visits in our sample. Unsuccessful visits reduce data availability, waste scarce staff and
ship transit resources, create the need for another visit, and frustrate the Coast Guard personnel
involved, which could complicate the relationship between NDBC and the Coast Guard.

Several other factors contribute to the high rates of unsuccessful service visits:

¾       Configuration differences. Each buoy has a unique configuration with its own mix of
        equipment and components. For example, a buoy may have any one of eight different
        versions of a data transmission component. Technicians may not be familiar with all the
        configurations, and available information on each deployed buoy’s configuration is
        incomplete. While NDBC retains records detailing which components are installed on
        individual buoys, contractor staff reported that the records do not fully describe the
        configuration of these components. These incomplete records make it more difficult for
        technicians to prepare effectively for service visits and ensure that they have the correct
        parts to complete the service visit. Contractor staff stated that they are in the process of
        updating buoy configuration diagrams to conform to what is actually in the field.

¾       Inadequate preparation and pre-trip planning. At the time of our review, planning and
        preparation for service trips were frequently inadequate. While the contractor is required
        to submit field service plans in preparation for individual service visits, NDBC’s
        performance assessments of the contractor indicate that, in some cases, these plans have
        been written and submitted after the service team has been dispatched. Additionally, the
        buoy technicians, Coast Guard staff, NDBC staff, and contractor management staff did
        not always meet to plan individual service visits or met too late in the process to
        effectively plan the visit. Better pre-trip planning and coordination could address many of
        the situations where the technicians arrived on site without the components or equipment
        required to complete the service visit, a problem cited in 27 percent of the trip reports that
        we reviewed.

¾       Inexperienced technicians and insufficient training. The contractor’s most experienced
        technicians are working on the DART and TAO buoys. Since 2004, approximately 16
        experienced technicians who were formerly working on weather buoys elected to work
        on the DART and TAO buoys, leaving only 3 experienced technicians among the total of
        11 who service weather buoys. NDBC and the contractor agreed with these transfers
        because of the need to ensure that these highly visible programs operated at optimum
        levels during and after their transitions. 7 Our review of the contractor’s trip reports
        revealed that the inexperienced technicians often focus on completing discrete tasks, such
        as installing equipment, but frequently fail to confirm whether the buoy is actually
        transmitting data. At the time of our review, NDBC had not clearly defined what
        minimum standard procedures are required for each service visit. Doing so could help
        ensure that verification of data transmission is part of every service visit. In addition,

6
 Either Coast Guard or contractor trip reports were available for 122 service visits during the 2-year period.
7
 The DART program in particular received management attention because of the Congressional mandate to quickly
expand the network of tsunami-detection buoys in the wake of the 2005 Sumatra tsunami.


                                                      9
U.S. Department of Commerce                                                   Final Report IPE-18585
Office of Inspector General                                                                 May 2008

       neither NDBC nor the contractor has addressed the inexperience of its weather buoy
       technicians by instituting systematic training requirements. The technicians currently
       learn exclusively through on-the-job observation, and neither the contractor nor NDBC
       has a specific set of required on-the-job activities to ensure technicians develop adequate
       skills.

Recommendations:

We recommend that the NOAA Assistant Administrator for Weather Services and National
Weather Service Director ensure that the National Data Buoy Center takes the following actions:
  1. Regularly monitor the results of contractor service visits and review Coast Guard and
      contractor trip reports, proactively addressing issues or concerns expressed in those
      reports.
  2. Support the contractor’s pre-trip planning process as necessary to ensure effective
      engagement with Coast Guard staff in planning service visits.
  3. Ensure that the support services contractor takes the following actions:
          a. Maintains complete and accurate records on existing buoy configurations.
          b. Establishes and documents a set of standard procedures for all on-site service
              visits that, at a minimum, directs technicians to (1) verify data transmission before
              leaving the site, (2) update information on the buoy’s configuration, as necessary,
              and (3) document the repairs or maintenance performed during the service visit.
          c. Improves pre-trip planning for buoy service visits by (1) preparing field service
              plans prior to the service visit and (2) convening pre-trip planning meetings for
              the buoy technicians, contractor management, NDBC staff, and Coast Guard staff
              to review the service plan and anticipated schedule.
          d. Ensures that buoy technicians receive adequate training to enable them to
              maintain and repair buoys and follow required reporting procedures.



NOAA’s response to our draft report concurred with our recommendations on improving the
success of contractor service visits and proactively analyzing trip reports to address issues or
concerns expressed in those reports. NOAA reported that NDBC has already taken several steps
to address the issues identified in our report, including the development of a Field Service Matrix
of Problems Encountered, an on-going study to track the cost and performance of the
contractor’s field service performance, and the establishment of a weekly meeting of relevant
parties to review each week’s field service activities. The efforts outlined in NOAA’s response
are positive steps toward resolving the issues identified in our report.

NOAA also concurred with our recommendation that its contractor improve its buoy
configuration records, document standard procedures for on-site service visits, improve pre-trip
planning, and ensure adequate training of buoy technicians. The response indicates that NDBC
has already taken substantive action toward the resolution of the issues identified in our report by
starting to update configuration documentation for existing buoys and to make that information
readily available to relevant parties, especially buoy engineers and service technicians. NDBC’s


                                                10
U.S. Department of Commerce                                                    Final Report IPE-18585
Office of Inspector General                                                                  May 2008

attention to configuration awareness training is also an important step toward the standardization
of configuration document management and maintenance.

NOAA’s response stated that NDBC maintains complete and accurate records on existing buoy
configurations, but acknowledges the need for improvements to record-keeping processes, such
as making the buoy configurations readily accessible to all users in a “readable” format, updating
the center’s configuration management plan, and conducting configuration awareness training to
technicians and engineers. While we agree with NOAA’s planned actions, we do not agree that
existing buoy configurations are “complete and accurate”, at least not at the time of our
fieldwork. As noted in our report, some personnel at NDBC questioned the accuracy and
completeness of the buoy configuration records.

To improve the consistency of its standard operating procedures for buoy field service visits,
NDBC stated that it would modify the description of its work requirements for buoy service
visits and revise its field service plan template. The response also indicated that NDBC is
working to improve its pre-trip planning process by preparing field service plans prior to
departing for service visits and convening pre-trip planning meetings for the buoy technicians,
contractor management, NDBC staff, and Coast Guard staff to review service plans and
anticipated schedules. In response to our recommendation to improve the training of field service
technicians, NOAA indicated that NDBC has established a comprehensive training program and
implemented the Technician Training Matrix, a tracking system that will monitor each individual
technician’s training progress. All of these actions are positive steps toward addressing our
recommendations.

B. NDBC needs to improve its planning for service         U.S. Coast Guard Transportation Support
   visits and coordination with the Coast Guard
                                                          Under a 1993 Memorandum of
NDBC has no dedicated funding to hire private             Understanding (MOU) between the U.S.
vessels to service weather buoys, so it relies on the     Coast Guard and NOAA, the Coast Guard
                                                          transports NDBC technicians, equipment,
Coast Guard for transport. Center and contractor staff    and buoys to most weather buoy locations. In
report buoy maintenance and repair efforts are            the private sector, these services can range
hampered by a shortage of ship time from the Coast        from $12,000 to $48,000 per day depending
Guard. However, NDBC cannot clearly define its            on the circumstances. For example, special
unmet ship transit requirements at this time because it   ice-cutting vessels needed in Alaska waters
                                                          are the most costly. The MOU anticipates
has not (1) clearly defined what service intervals are    that the Coast Guard will provide up to 281
required to maintain data availability and (2) worked     days of ship time per year to support the
to maximize utilization of Coast Guard resources by       center’s data buoy operations.
improving the scheduling of service visits and the
success of the service visits that are completed.         Source: NDBC, U.S. Coast Guard


Defining required service intervals. Service trip records for July 2005 through July 2007 showed
that the 51 buoys in our sample received an average of 3.3 service visits during this 2-year
period. At the time of our review, NDBC was proposing to change its maintenance schedule
from 2 years to as many as 5 years in some cases, even though half of the buoys required
multiple service visits during the 2-year period that we reviewed. While some buoys may last for
years without servicing, it seems clear from the trip records that 2 years between scheduled



                                                11
U.S. Department of Commerce                                                   Final Report IPE-18585
Office of Inspector General                                                                 May 2008

maintenance visits is too long for many buoys. Addressing the high number of unsuccessful
service visits may help reduce the number of service visits required in the future. However, the
relatively high frequency of service visits required for many of NDBC’s buoys raises questions
as to whether the current scheduled service intervals are appropriate for all of the buoys in the
fleet.

Part of the difficulty in defining required service intervals appears to be uncertainty about the
expected life span of individual buoy components. At the time of our review, NDBC had not
completed a comprehensive study of the observed life span of critical buoy components. It had
completed such a study for one component (anemometers) and was beginning life-expectancy
studies of other components. With over 30 years of experience in working with some buoy
components, the center should make greater use of the available data on equipment performance
and reliability. Completing life-span studies of the buoy components could allow NDBC to better
plan future service requirements based on the observed reliability of individual components.

Clearly defining required service intervals is particularly important for weather buoys on which
NDBC has recently placed oceanographic instruments. NDBC recently deployed 58
oceanographic sensors of various types (as of September 2007) on 41 separate platforms, and
these sensors require more frequent servicing than standard meteorological instruments,
according to NDBC managers. However, at the time of our review, NDBC had neither clearly
identified the required service intervals for the buoys with the new sensors nor had it changed its
planned service intervals for these buoys to account for their more frequent maintenance
requirements. Effectively calculating service intervals for these buoys is also important to
prevent NDBC from deploying more equipment than it can adequately maintain.

Cancellation of scheduled service visits. Coast Guard staff noted that, on several occasions,
NDBC’s support services contractor has cancelled service visits that had been requested earlier
by the contractor and scheduled by a Coast Guard ship. The contractor cited shortages of staff or
replacement parts in cancelling these service visits, but for the most part these circumstances
should have been anticipated before NDBC requested transit from the Coast Guard. Late
cancellations are a frustration for Coast Guard personnel who have worked to accommodate
NDBC’s requests for unscheduled service visits and can disrupt the Coast Guard’s planning and
scheduling. While extenuating circumstances such as staff illnesses or departures may sometimes
require the cancellation of a scheduled service visit, NDBC and its contractor should take steps
to ensure that the center has sufficient staff and parts to support service visits before scheduling
them with the Coast Guard.

Insufficient advance notice to the Coast Guard. The amount of Coast Guard ship transit time the
center has used in past years has never reached the 281-day maximum provided for in the 1993
MOU (see figure 4). NDBC received only 182 days in fiscal year 2006 and 206 days in fiscal
year 2007, even though transport requirements increased as the center added weather buoys and
new oceanographic instruments to some of them. NDBC personnel told us that they were not
getting sufficient support from the Coast Guard, while Coast Guard staff noted that NDBC does
not provide sufficient information about or advance notice of transit requirements. Because
neither NDBC nor the Coast Guard kept records showing ship transit requests that the Coast




                                                12
U.S. Department of Commerce                                                                                  Final Report IPE-18585
Office of Inspector General                                                                                                May 2008

Guard rejected or substantially delayed, we could not document specific instances where the
Coast Guard was unable to satisfy NDBC’s transit requirements.

                                                       Figure 4: NDBC Use of Coast Guard Ships

                                   280
    Number of Ship Days Provided




                                   260                                                                   Maximum Number of Ship
                                                                                                         Days to NDBC per MOU
                                   240

                                   220

                                   200

                                   180

                                   160

                                   140

                                   120
                                         1997   1998    1999   2000   2001        2002     2003   2004   2005    2006     2007
                                                                             Fiscal Year


Source: U.S. Coast Guard

We found that NDBC does not provide the Coast Guard with complete information on regularly
scheduled service requirements. The contractor is required to prepare quarterly and biannual
Moored Buoy Observation Schedules, but these schedules do not contain some of the specifics
the Coast Guard needs to inform its ship scheduling process. Because the NDBC service
schedules lack details about the services the contractor will perform, they do not clearly establish
what type of Coast Guard ship or equipment will be required for any specific trip. Additionally,
NDBC’s schedules do not provide an estimate of how much time will be required on-site to
complete the work. Coast Guard personnel also noted that NDBC’s service schedules change
frequently, so they are not useful for advance scheduling of ship resources. If NDBC provided
the Coast Guard with more complete information on its ship transit requirements, this could help
the Coast Guard to balance those requirements with its other missions and better incorporate
NDBC requirements into the Coast Guard’s annual ship scheduling process.

The need for more specific information on transit requirements goes beyond NDBC’s scheduled
service visits, as 40 to 60 percent of NDBC’s service trips are unscheduled visits to respond to
buoy failures. 8 A buoy’s data may suddenly become unavailable for one or more reasons which
cannot always be predicted, including particularly harsh weather conditions, vandalism,
commercial fishing accidents, vessel collisions, technical glitches, marine creatures, plant life,
and/or corrosion. NDBC’s current Station Failure Response Policy states that such failures are to
be serviced “as soon as possible” and are “accorded a higher priority than other scheduled or
unscheduled station maintenance.” While the unpredictable nature of failures may prevent

8
 Coast Guard records indicate that failure responses account for approximately 60 percent of service visits, while
NDBC told us that failure responses account for 40 to 50 percent of service visits.


                                                                             13
U.S. Department of Commerce                                                  Final Report IPE-18585
Office of Inspector General                                                                May 2008

NDBC from giving the Coast Guard advance notice on failure responses, NDBC could provide
more information on historical buoy failure rates in the various Coast Guard service districts.
While this is not a perfect predictor of future buoy failures, such information could assist the
Coast Guard in planning more generally to make the necessary capacity available.

NDBC staff responded to the Coast Guard’s concerns about scheduling in September 2007 by
coordinating with the contractor and Coast Guard staff to provide additional information on
anticipated FY 2008 service schedules. As a result of this process, the Coast Guard officer at
NDBC was able to send a more complete scheduling request for the upcoming fiscal year to
Coast Guard district offices. NDBC staff indicated that they plan to consider Coast Guard
feedback on the most recent service schedule and will work with the contractor to continue to
give the Coast Guard more relevant and complete information for future years.

Striking the right balance between the Coast Guard’s desire for advance notice of transport
requirements and NDBC’s desire for flexibility in responding to emerging buoy service
requirements necessitates close coordination between the two organizations. Responding to data
buoy outages does not obviate the need for mapping out long-term service schedules and sharing
the best available information on expected transport requirements for the upcoming year. While
NDBC personnel have made progress towards providing the Coast Guard with more specific
information, the center should continue to coordinate with the Coast Guard on ways in which it
can further improve the information that it provides on its future transport requirements. NDBC
should also work with its support services contractor to ensure that the Moored Buoy
Observation Schedules are more responsive to the Coast Guard’s needs and, if necessary, modify
future task orders to stipulate what information should be included in these schedules.

Recommendations:

We recommend that the NOAA Assistant Administrator for Weather Services and National
Weather Service Director ensure that the National Data Buoy Center takes the following actions:
  4. Require the support services contractor to do the following:
          a. Define the service intervals necessary to maintain data availability from weather
              buoys according to past performance of the buoys and their critical components
              and, as resources permit, establish service intervals to more accurately reflect
              observed service performance and equipment reliability.
          b. Ensure that sufficient staff and parts are available to support service visits before
              scheduling them with the Coast Guard.
  5. Work with the Coast Guard and the support services contractor to identify the
      information that the Coast Guard requires for future service visits. Ensure that the
      contractor provides all available information to the Coast Guard on future service needs,
      including details about the past number of unscheduled service visits in specific Coast
      Guard regions. As necessary, modify future task orders to specify what additional
      information the contractor should provide regarding future service requirements.
  6. After more clearly defining required service intervals and working with the Coast Guard
      to more effectively use its resources, define any remaining gap between actual ship




                                                14
U.S. Department of Commerce                                                Final Report IPE-18585
Office of Inspector General                                                              May 2008

       transport requirements and available resources from the Coast Guard and other sources,
       and begin planning to address such transit shortages, if any.



In its response to our draft report, NOAA concurred with our recommendations on improving
planning for and execution of service visits and outlined actions to address these
recommendations. Specifically, the response states that NDBC would reevaluate its service
intervals and update its Moored Buoy Operations Schedule as necessary. In its action plan,
NOAA should detail its plans for a more systematic approach to the life-cycle management of
critical buoy components which would consider past rates of buoy performance and equipment
reliability to optimize buoy functionality and longevity.

While NDBC agreed to reevaluate its planned service intervals, the response states that “NDBC
previously identified planned buoy and mooring exchange intervals based on past performance
and budget constraints.” We understand that NDBC’s service intervals at the time of our review
were informed by its long experience of maintaining the buoys and its generalized knowledge of
the buoy’s past performance. We also understand that NDBC has limited resources for servicing
buoys. As noted in our report, however, NDBC was servicing many of its buoys much more
frequently than anticipated by the scheduled service intervals. To address this problem, we
recommended a systematic assessment of past buoy performance and the life expectancy of
critical buoy components in order to optimize buoy service intervals.

In response to our recommendation to ensure that sufficient staff and parts are available to
support service visits before scheduling them with the Coast Guard, NOAA indicated that NDBC
would develop a new inventory management control process to achieve greater clarity of
resource availability. However, the response makes a distinction between planned service visits,
for which NDBC would achieve “a near 100 percent success rate,” and unplanned visits, for
which the new inventory control process will not produce the “same result.” While we agree that
unplanned service visits may require quick decisions based on limited information, to the extent
possible, NDBC should still confirm the availability of critical components and personnel before
heading out for an unplanned service visit. During our review, we found that NDBC requested
ship time from the Coast Guard to carry out a number of unplanned service visits for which it
had insufficient parts and staffing.

NOAA concurred with our recommendations for improving coordination with the Coast Guard
on planning service visits and defining unmet ship transit requirements. NOAA noted that NDBC
had begun improving its coordination with the Coast Guard on ship scheduling and would
modify its task order for the contractor in FY 2009 to address the need for better planning of
long-term service schedules.




                                              15
U.S. Department of Commerce                                                   Final Report IPE-18585
Office of Inspector General                                                                 May 2008

C. NDBC should better define its inventory deficiencies and take action to address them

Center staff frequently cited spare or replacement parts shortages as a primary obstacle to
maintaining high levels of data availability for weather buoys. For example, the center director
stated that NDBC needs about 30 spare buoys hulls (30 percent spare capacity) so that it can
deploy replacement buoys to locations where the existing buoy needs to be brought to the center
for a full overhaul. Currently, the center is using most of what were formerly spare hulls for buoy
deployments. The director’s technical assistant, however, stressed that NDBC needs more new
buoy payloads (buoy systems comprised of a main processor, communication equipment, and
battery arrays) to replace older payloads that, in some cases, rely on computer processors that are
20 years old. Contractor staff recounted how they often have to remove parts from buoys brought
in for maintenance in order to outfit other buoys that are scheduled for deployment. In addition
to these inventory requirements already highlighted by NDBC staff, the center may identify
requirements for additional parts when it completes studies of the life cycles and reliability of
key buoy components.

In response to our requests for information on parts requirements, NDBC staff provided a
summary analysis of the current stock of buoy hulls, payloads, and anemometers, but these
analyses did not identify or prioritize current or future requirements for all components. In
January 2007, NDBC and contractor personnel conducted an analysis of “bare-bones” part
requirements for the short term, including requirements for new buoy hulls, to meet planned
service visits for the next 2 years. The email to NDBC managers describing this analysis noted
that the center would probably not have enough money to meet even these minimums. During
our review, NDBC has been working to address these requirements within existing resource
constraints.

Given the potential impact of parts shortages on NDBC’s operations, defining and addressing
both short and long-term shortages are essential to the center’s ability to maintain adequate levels
of data availability. While the January 2007 analysis was useful and necessary for identifying
short-term part requirements, it is not sufficient for long-term inventory planning. Longer-term
planning requires a more comprehensive analysis that is informed by studies of how aging
affects components’ reliability. NDBC should complete such studies and develop a prioritized
list of long-term inventory requirements for its existing buoys so that the center can work with
NOAA to address the requirements.




                                                16
U.S. Department of Commerce                                                     Final Report IPE-18585
Office of Inspector General                                                                   May 2008

Recommendation:

We recommend that the NOAA Assistant Administrator for Weather Services and National
Weather Service Director ensure that the National Data Buoy Center takes the following action:
  7. Work with the support services contractor to identify and prioritize long-term part
      requirements and develop and implement a plan to address them.



NOAA’s response to our draft report concurred with our recommendation on improving planning
for part requirements. NOAA stated that NDBC will prepare a three-year plan to identify long-
term part requirements and use this as the basis for necessary budget requests.

D. NDBC’s deployment of oceanographic instruments on weather buoys was premature

The Commerce appropriations bill for fiscal year 2006 gave the center $4 million to install
oceanographic sensors on existing weather buoys. The center began to quickly deploy the
sensors without first adequately testing their reliability, even though the appropriations bill gave
NOAA three years to obligate the funds. By the end of March 2006, NDBC had placed 10
acoustic current sensors, 9 salinity sensors, and 4 point-source current sensors on various
weather buoys and continued to install additional acoustic current and salinity sensors even
though the initial sensor deployments were not successful. By September 2007, the center had
deployed 38 of the acoustic current and salinity sensors on 25 separate buoys and 2 C-MAN
stations, but only 2 of the 16 acoustic current sensors and 8 of the 22 salinity sensors were
functioning. NDBC also continued to deploy point-source current sensors on other buoys, 90
percent of which were functioning in September 2007. (See table 3.)


    Table 3: Number of Sensors and Percentage Reporting for Selected Dates
                  Acoustic Current                                  Point-Source Current
                                             Salinity Sensors
                     Sensors                                              Sensors

                Total                       Total                    Total
                              Percentage               Percentage              Percentage
               Number                      Number                   Number
                               Reporting                Reporting               Reporting
               Deployed                    Deployed                 Deployed

  21-Mar-06        10            10.0         9           22.2         4          75.0
   4-Jul-06        12            16.7        20           15.0         8          75.0
  24-Oct-06        13            23.1        22            9.1        11          81.8
  13-Feb-07        14            14.3        22            9.1        12          66.7
   5-Jun-07        15            13.3        20           45.0        17          64.7
  4-Sep-07         16            12.5        22           36.4        20          90.0
Source: NDBC

NDBC managers stated that the center had successfully deployed oceanographic sensors in the
past, but these past deployments involved different models of the oceanographic sensors and had
been limited to NDBC’s larger buoy platforms. NDBC and contractor staff confirmed that the


                                                  17
U.S. Department of Commerce                                                 Final Report IPE-18585
Office of Inspector General                                                               May 2008

center did not evaluate whether the sensor models deployed during 2006 worked properly on the
smaller weather buoy platforms before further deploying them. In September 2007, the director
of NDBC characterized the deployments as being in an “operational test” phase, but he could not
satisfactorily explain why 41 platforms were required to perform an operational test. NDBC
managers also noted that oceanographic sensors require more frequent maintenance than the
instruments that are normally deployed on weather buoys. This further taxed the center’s
resources because, according to NDBC managers, funding was provided for the sensors’
deployment but not for the more frequent service visits required to maintain the sensors.

The new oceanographic instruments add no value to the monitoring of ocean conditions if they
do not work. Now that the acoustic current and salinity sensors have proven to be unreliable as
deployed, NDBC will have to make adjustments to the 27 separate platforms that have those
sensors. NDBC should delay further deployment of the acoustic current and salinity sensors on
weather buoys until it has developed and tested a way to reliably deploy those sensors on the
weather buoys and developed an appropriate maintenance schedule that can be supported within
NDBC’s and NOAA’s resource constraints. Since the need to repair unreliable sensors has
diverted resources from other maintenance tasks, the impact of halting further deployment of the
sensors until NDBC can bring them up to acceptable performance levels should be positive. In
the future, NDBC should test and evaluate any new instrument on a smaller number of buoys to
demonstrate both the instrument’s reliability and the feasibility and adequacy of the center’s
maintenance schedule for the instrument before widely deploying it on existing buoy platforms.

Recommendations:

We recommend that the NOAA Assistant Administrator for Weather Services and National
Weather Service Director ensure that the National Data Buoy Center takes the following actions:
  8. For the acoustic current and salinity sensors recently deployed on weather buoys:
          a. Develop and test a reliable design and establish an appropriate, sustainable
              maintenance schedule for the sensors;
          b. Delay the deployment of any additional acoustic current and salinity sensors until
              NDBC has developed and tested a reliable and sustainable deployment and
              maintenance schedule; and
          c. Only deploy oceanographic sensors on weather buoys for which NDBC can
              sustain required maintenance schedules, adjusting current and future deployments
              as required by resource constraints for buoy maintenance.
  9. In the future, before wide deployment, evaluate any new instrument on a limited number
      of buoys to demonstrate the instrument’s reliability and the feasibility and adequacy of
      the center’s maintenance schedule for the instrument.



NOAA’s response to our draft report concurred with our recommendations regarding the
deployment of new sensors on existing weather buoys and agreed to take actions to address
them. The response stated that the recent deployment of oceanographic sensors was done in
accordance with a “spiral” development process, which calls for fixed requirements with a


                                               18
U.S. Department of Commerce                                                   Final Report IPE-18585
Office of Inspector General                                                                 May 2008

“spiral” phase that involves multiple rounds of designing, building, and testing a prototype until
a final design is achieved. However, as noted in our report, NDBC deployed 16 acoustic current
sensors and 22 salinity sensors to conduct testing of the sensors—a number that appeared
excessive. We question NDBC’s stated strategy of placing instruments on buoys knowing that—
after they fail—the center would be unable to fix them or diagnose the reasons for their failure at
the site of the buoy. This strategy prevents the center from fully diagnosing the reasons for the
instrument failure before deploying additional instruments and results in a large number of non-
functional deployed instruments that will have to be retrofitted or replaced when a final design is
selected. We reiterate the need to fully test new instruments and develop a sustainable,
appropriate maintenance schedule for the buoy platforms with new instruments before deploying
them on a large number of platforms.




                                                19
U.S. Department of Commerce                                                                  Final Report IPE-18585
Office of Inspector General                                                                                May 2008

II.      The Incentive Provisions and Other Aspects of NDBC’s Acquisition for Support
         Services Raise Concerns

NDBC competitively selected a contractor to provide data management and buoy design,
assembly, and repair services under a 5-year indefinite-delivery, indefinite-quantity (ID/IQ)
contract 9 worth a minimum of $250,000 and a maximum of $500 million. 10 The contract, which
commenced July 1, 2005, includes five 1-year extensions called award-term years. 11 NDBC’s
contracting staff included the award-term provision to provide an incentive for excellent
contractor performance. Under the provisions of the contract relating to award-terms, NDBC
must decide whether to execute the first extension by June 30, 2008, and annually thereafter for
each of the remaining four. This allows NDBC two years to recompete the contract if the award-
terms are not granted. The former NDBC contracting officer felt that two years was a reasonable
period for recompeting the contract, although departmental officials told us that a new
acquisition could be completed in less than a year. In addition to award-term years, the contract
contains fees that vary depending on performance results. This fee structure is designed to
provide further incentives for contractor performance.

We are concerned about several aspects of NDBC’s acquisition strategy and its support services
contract, including the incentive provisions and the center’s justification for bundling nearly all
service requirements into a single acquisition and single contract.

A. NOAA did not properly execute contract provisions for extending the term

Award-term incentives provide for the extension of the contract term without a new competition.
As characterized by the policies of other government agencies, the contractor earns an extension
of the contract term if specified performance goals are met. 12 This differs from an option term,
which gives the government sole discretion to extend the term regardless of the contractor’s
performance. The FAR does not explicitly discuss award-terms, although the concept is modeled
after the FAR’s award fee provisions. 13 The Department of Defense has used the award-term
contracting vehicle for 10 years. NOAA told us it currently has five active award-term contracts.

NOAA did not clearly define the provisions allowing for the contract’s extension. The contract
contains language allowing for five 1-year “award-term option years,” even though award-terms
and option terms are substantively different. NDBC, departmental, and contractor personnel
disagree on whether the “award-term option years” are true options that give the government
discretion to extend the contract, or award-terms, which obligate the government to extend the
term if the contractor meets performance goals.


9
  Indefinite-delivery, indefinite-quantity contracts are used to acquire supplies and/or services when the exact times
and/or quantities of future deliveries are not known at the time of contract award (FAR 16.501.2).
10
   Funding levels were set to accommodate the expansion of the center’s existing buoy network and any buoy
observing systems that are transitioned to NDBC during the contract term.
11
   In 1997, the Air Force began providing award-term years to contractors for outstanding performance. NASA also
uses award-term provisions in contracts.
12
   NASA Procurement Information Circular 06-02, January 25, 2006; and Department of Defense Office of
Inspector General Report No. D-2004-111, August 24, 2004, page 4.
13
   See FAR 16.405-2.


                                                          20
U.S. Department of Commerce                                                                 Final Report IPE-18585
Office of Inspector General                                                                               May 2008

NDBC’s contracting officer’s technical representative (COTR) 14 and contracting officer stated
that award-term options are award-terms that do not fall under the FAR’s definition of contract
options. However, the contracting officer agreed that the contract’s ambiguous language implies
both contractor rights (additional contract years are earned by the contractor and must be
exercised) and government rights (additional contract years are earned by the contractor, but may
or may not be exercised).

Other knowledgeable officials stated that the award-term option years in NDBC’s contract are
option years: (1) Some departmental officials told us that the “award-term option years” included
in the contract are option years as described in the FAR, and the government has the discretion to
exercise them like any other contract option; (2) the contractor believes the award-term option
years are not guaranteed because the government has the unilateral right to exercise them; and
(3) the former NDBC contracting officer who prepared the contract stated that any award-term
year earned by the contractor is an option that the center could exercise at its discretion. 15

The acquisition plan did not explicitly approve a deviation from general prohibitions against
contracts lasting longer than five years. In general, federal law prohibits the total length of a
contract, including options, from exceeding five years, although an exemption is provided for
information technology (IT) contracts. 16 The FAR reflects this prohibition and the exemption. 17
While the FAR does not explicitly discuss award-term contracts, both the Department of Defense
and NASA have determined that award-terms alone are not a justification for allowing a contract
to exceed 5 years. 18 The FAR does allow agencies to establish procedures for approving longer
contract terms, 19 but we did not find any documented procedures for approving longer terms at
Commerce.

The Commerce Acquisition Manual delegates authority for approving deviations from the FAR
to the Department’s Procurement Executive.20 While the acquisition plan was approved by the
Procurement Executive, it did not explicitly request a FAR deviation or provide justification for
such a request. Instead of requesting approval for a FAR deviation, the acquisition plan that
NDBC submitted to the Acquisition Review Board stated that the acquisition was for
information technology. However, the contract itself states that the acquisition is for “facility
support services,” and current NDBC staff acknowledged that the acquisition was not for
information technology. Thus, the Procurement Executive’s approval for a deviation from the
FAR would be needed to extend NDBC’s contract term beyond 5 years.


14
   Officially, COTRs are now known as Contracting Officer’s Representatives, or CORs, but this report uses the
term COTR because of its widespread use at NDBC.
15
   NDBC’s acquisition plan requires that options be exercised in accordance with FAR 17.207, which states that the
“contracting officer may exercise options only after determining that” certain criteria such as funds availability are
met.
16
   FAR 17.204(e).
17
   FAR 16.505(c)(1), 17.103, 17.104(a), and 17.204(e).
18
   Department of Defense OIG Report D-2004-111 and NASA Procurement Information Circular 06-02.
19
   The departments of State and Agriculture and the Environmental Protection Agency have established such
procedures. See Department of Agriculture’s FAR supplement at 417.204, Department of State’s FAR supplement at
617.204, and the Environmental Protection Agency’s FAR supplement at 1517.204. DOD made its five-year limit
for award-term contracts mandatory on March 23, 2004, when it published case 2003-D097.
20
   Commerce Acquisition Manual 1301.70.


                                                         21
U.S. Department of Commerce                                                         Final Report IPE-18585
Office of Inspector General                                                                       May 2008

The Department established the Acquisition Review Board to evaluate major procurement plans
and actions like the NDBC support services contract, but has not documented procedures or
authorities for the board, and this may have undercut its usefulness in reviewing NDBC’s
solicitation (for a fuller discussion of this situation, see chapter IV). The Acquisition Review
Board approved the acquisition plan in an August 16, 2004, memorandum signed by
Commerce’s procurement executive. This memorandum included a list of recommendations but
did not explicitly make the acquisition’s approval contingent on implementing them. One
recommendation was that NOAA “obtain further guidance” from OGC on the appropriateness of
the “10-year term,” but NOAA never sought a formal legal opinion and OGC never provided
one.

The contract does not establish labor rates beyond the 5-year base term. Whether the extensions
in the center’s contract are deemed award-terms or options, federal law and guidance require
consideration of prices for option periods at the time of contract negotiation and before a
decision is made on contract award. The center’s contract contains competitively bid labor rates
for the 5-year base only, and states that new labor rates will not be established until 90 days after
any option award has been granted. This provision leaves the labor rates for any contract
extensions open to noncompetitive negotiation, thus diminishing NDBC’s leverage to obtain the
best price.

Multiple criteria show that NDBC should have established the labor rates for additional contract
terms beyond the 5-year base. FAR 52-217.5 requires that agencies consider the prices for all
contract periods when evaluating contract proposals. NOAA Acquisition Instruction 15-01,
Source Selection Authority, dated July 14, 2004, states that “Contract value shall be calculated as
the total price/cost of the base period plus the total price/cost of any options plus the total
price/cost of any potential award-term periods.” GAO has also weighed in on this issue,
recommending that costs for all option years be determined at the time of solicitation and stating
that negotiating new rates for new periods after the initial contract award is a sole source
action. 21

NDBC’s former contracting officer acknowledged that the costs and labor rates for the award-
term years were not determined because it was “difficult” to forecast them beyond the 5-year
base. He stated that the center would have to solicit and review a cost proposal from the
contractor prior to any award-term year and submit it to the Defense Contract Audit Agency for
review and approval. NDBC’s director and current contracting officer told us that the contract
should have established the costs of all base and award-term years, including negotiated labor
rates.

In summary, three areas of concern create uncertainty regarding the award-term provision of
NDBC’s support services contract: (1) the contract language does not clearly define the
provision allowing for the contract’s extension, (2) NOAA did not explicitly request and receive
approval for a deviation from the FAR for the 10-year term or request a formal opinion from

21
  See, for example, GAO/AIMD-95-132, Weather Forecasting, Radar Availability Requirement Not Being Met,
May 1995; and GAO-01-659T, Coast Guard: Actions Needed to Mitigate Deepwater Project Risks, May 2001.
Summary of GAO guidance cited in The Award-term Incentive: A Status Report, Vernon J. Edwards, February
2002.


                                                    22
U.S. Department of Commerce                                                     Final Report IPE-18585
Office of Inspector General                                                                   May 2008

OGC on the appropriateness of the 10-year term, and (3) NOAA did not establish labor rates
beyond the 5-year base term. We therefore recommend that NOAA obtain a formal legal opinion
from OGC before executing any award-terms to clarify whether there is a legal basis for the
contract’s possible 10-year term and whether NDBC can execute an award-term that was not
priced competitively at the time of the contract negotiation.

Recommendations:

We recommend that the NOAA Assistant Administrator for Weather Services and National
Weather Service Director ensure that the National Data Buoy Center takes the following actions:
  10. Before extending the term of the support services contract beyond the 5-year base:
          a. Obtain a formal legal opinion from OGC on the length of the contract term and
              the ability of NDBC to execute an award-term that was not priced at the time of
              the contract negotiation. As necessary, request approval for a FAR deviation from
              the Procurement Executive.
          b. Clarify the government’s and the contractor’s rights related to the extension of the
              contract beyond the 5-year base term, if applicable, including whether the
              government is legally obligated to award additional terms if the contractor meets
              performance targets.
          c. Negotiate labor rates for additional contract terms, certify that these rates are
              competitive through market research and/or bids from other companies, and
              submit them for review and approval by the Defense Contract Audit Agency.
  11. Recompete the contract without exercising any extensions to the base term if concerns
      regarding the contract’s extension provision cannot be resolved.



NOAA’s response to our draft report noted its concurrence with our recommendations regarding
the possible extension of the contract’s base term. NOAA agreed to take appropriate actions to
address our concerns. Specifically, NOAA agreed to obtain a legal opinion from OGC on the
length of the contract term, clarify the rights of the contract parties regarding the extension of the
contract beyond the 5-year base term, and negotiate labor rates for additional contract terms
before awarding those contract extensions. NOAA also concurred with our recommendation to
recompete the contract if these issues cannot be favorably resolved.

B. The fee scale for NDBC’s contract limits contractor accountability and incentives

We found that the contractor’s average performance scores negligibly improved between the first
and the second contract years, leaving average performance scores at the lowest range of the
“excellent” rating. The contractor’s average score was 95.75 (out of 106) in year one of the
contract and 95.96 in year two, with some tasks rated as “unsatisfactory” or “failing” during
some quarters. Although many factors affect the contractor’s performance, the fee scale that
NDBC negotiated with its contractor limits contractor accountability and incentives for
achieving superior performance. NDBC’s fee scale contains six levels (1=outstanding, 6=failing)
with a corresponding range of fees that change incrementally from one level to the next. These


                                                 23
  U.S. Department of Commerce                                                           Final Report IPE-18585
  Office of Inspector General                                                                         May 2008

  fees, which are a paid as a percentage of the estimated or actual cost of the task order, reward the
  contractor even for failing performance and offer little incentive for improvement. (See table 5.)

                      Table 5: NDBC’s Fee Scale for Contractor Task Orders
                       Cost Plus        Firm Fixed
                       Fixed Fee        Price Task       Performance      Percent       Number of Times
 Performance          Task Orders         Orders            Scores     Achieved Last        Fee Level
 Level                    (%)              (%)                            2 Years           Achieved
 (1) Outstanding        6.75             8.75            103-106             18                 26
 (2) Superior           6.50             8.50            100-102             16                 23
 (3) Excellent          6.25             8.25              95-99             21                 29
 (4) Satisfactory       5.25             7.25              87-94             38                 54
 (5) Unsatisfactory     4.25             6.25              75-86              6                  9
 (6) Failing            4.00             5.00               0-74              1                  1
 *NDBC has used 31 task orders during the last 2 years for 248 possible quarterly scores (31 x 8). But
 because some task orders had no activity, there is no corresponding quarterly score. The resulting total
 is 142 scores.
Source: OIG and NDBC

  The overall difference between the fees given for “failing” performance and “outstanding”
  performance is only 2.75 percent for cost plus task orders and 3.75 percent for fixed price task
  orders. This limited range does not provide adequate financial incentives or disincentives to
  promote higher levels of contractor performance or contractor accountability. Incentives and
  disincentives are further weakened by NDBC’s decision to divide the already narrow range of
  fees into six separate scales for various performance levels. As shown in Table 5, this leaves
  little marginal difference between the fee rates paid for higher performance levels. For example,
  the marginal difference between the three fee scales for tasks rated at the “excellent,” “superior,”
  and “outstanding” performance levels is only 0.25 percent of the task order value.

  Another weakness of the current fee structure is that it pays fee amounts above the minimum
  contract fee for work rated satisfactory or worse. In a 2005 report focused on award and
  incentive fees, GAO found that paying fee amounts higher than the minimum fee for
  performance that is satisfactory or below dilutes the fees’ motivational effectiveness, and paying
  significant fees for acceptable, average, expected, good, or satisfactory performance not only
  undermines their effectiveness as a motivational tool, but also marginalizes their use in holding
  contractors accountable for acquisition outcomes. 22 According to the GAO report, DOD has
  stated that fee arrangements for providing performance incentives should be structured so that
  the bulk of fees are earned for highly-rated performance, and any fee scale accordingly should
  provide greater financial incentive for the contractor to perform at a higher level. 23 DOD has also
  determined that anything above a 3 percent fee is excessive for acceptable performance. 24
  However, as shown in Table 5, NDBC pays a minimum fee of 4 to 5 percent for performance at
  the failing level and fees of 4.25 to 6.25 percent for unsatisfactory performance. The fees for
  satisfactory performance (5.25 percent for cost plus task orders and 7.25 percent for firm fixed

  22
     Government Accountability Office Report, DOD Has Paid Billions in Award and Incentive Fees Regardless of
  Acquisition Outcomes, GAO-06-66, December 2005, page 23.
  23
     Ibid, page 35.
  24
     Ibid, page 35.


                                                       24
U.S. Department of Commerce                                                       Final Report IPE-18585
Office of Inspector General                                                                     May 2008

task orders) are greater than the minimum fee specified in the contract and greater than the de
minimis fees preferred by DOD.

NDBC’s COTR and its current and former contracting officers agreed that the current fee
structure provides limited financial incentives for superior contractor performance. The
contracting officer who prepared the center’s support services contract told us that he wanted a
fee scale ranging from 2 to 3 percent for unsatisfactory performance up to 9 to 10 percent for
superior performance, noting that DOD contracts usually comprise broader fee scales to motivate
contractors. He stated that the effort to broaden the range was unsuccessful because the
contractor would not agree to fees lower than 4 to 5 percent. NDBC’s director agreed with our
concerns about the current fee scale and said that he would prefer a fee scale that holds the
contractor more accountable for deficient performance. During our review, NDBC was
discussing a new fee scale with the contractor, which was ultimately implemented after we
completed our field work. Table 6 shows the new fee scale, which contains fewer levels with a
wider range of fees, but it still allows the payment of the minimum fee amount for unsatisfactory
or failing performance.

                Table 6: Current Fee Scale and NDBC Proposed Fee Scale
                Current Fee Scale                               NDBC’s Revised Fee Scale
                  (Six Levels)                         (Implemented for the Third Contract Year)
                                                                               CPFF
        Level             CPFF (%)      FFP (%)               Level             (%)      FFP (%)
Outstanding                 6.75         8.75      Above Satisfactory
                                                   (Maximum fee specified       6.75       8.75
Superior                      6.50        8.50     in the contract)
                                                   Satisfactory (Target fee
Excellent                     6.25        8.25
                                                   specified in the contract)   6.25       8.25
Satisfactory                 5.25         7.25     Unsatisfactory or worse
Unsatisfactory               4.25         6.25     (Minimum fee specified       4.00       5.00
Failing                      4.00         5.00     in the contract)
Note: CPFF=Cost Plus Fixed Fee, FFP=Firm Fixed Price
Source: NDBC

Recommendations:

We recommend that the NOAA Assistant Administrator for Weather Services and National
Weather Service Director ensure that the National Data Buoy Center takes the following actions:
  12. For future acquisitions with financial performance incentives, develop a fee structure that
      holds the contractor more accountable for performance results and does not reward
      unsatisfactory or poor performance or provide for significant fee payments for
      performance that is only satisfactory.




NOAA’s response to our draft report concurred with our recommendations on the fee scale for
future contracts with financial performance incentives, stating that it would pursue a fee scale
with more substantial financial incentives and disincentives for contractor performance.


                                                   25
U.S. Department of Commerce                                                              Final Report IPE-18585
Office of Inspector General                                                                            May 2008




C. NDBC did not adequately justify its choice of a single acquisition for all support services

Two aspects of NDBC’s acquisition strategy for support services limit competition. First, NDBC
made only a single award under its indefinite-delivery, indefinite quantity acquisition, even
though the FAR anticipates that agencies will make multiple awards under this type of contract
to allow for competition when issuing individual task orders. Second, the center combined nearly
all of its support service requirements into one acquisition—buoy maintenance and repair
services, data management services, and office support functions (e.g., help desk support, mail
delivery). This acquisition strategy limits competition for functions that could likely be
performed by different contractors with minimal or no disruption to buoy operations.
Competition is preferred in federal contracting to ensure that the government receives the best
value when procuring services.

The center did not adequately justify its single award decision in its acquisition plan, despite
requirements in NOAA’s Acquisition Handbook 25 that an agency’s rationale for choosing only
one contractor be included in the plan. The handbook emphasizes that the plan must include a
summary of alternatives considered and must present convincing, factual documentation, not
conclusory statements, to support the decision. We found that NDBC’s justification for choosing
a single support contractor contained conclusory statements with inadequate discussion of
alternatives and no factual documentation:
             NDBC considered breaking out the operation and support services requirements
             from the information technology services for this acquisition. The approach is
             considered unacceptable because of extensive coordination required between the
             two phases of the work and the need to hold one contractor responsible for
             overall performance. The uninterrupted delivery of high quality, real-time
             environmental data to the operational elements of NOAA and for weather
             forecasting and warning is paramount. Multiple contractors working under
             different terms and conditions would present too much risk to our mission.
FAR 16.504 details six situations in which it is appropriate to make a single award under an
ID/IQ acquisition (see Table 7). NDBC’s acquisition plan cited guideline number six as its
justification but did not adequately show why multiple awards would not be in the best interests
of the government. Moreover, the plan did not provide support for any other FAR guidelines on
making a single award ID/IQ contract by, for example, showing why the projected task orders
are so integrally related that only a single contractor could reasonably perform the work.




25
  National Oceanic and Atmospheric Administration Acquisition Handbook, Version 3.1, October 31, 2004. The
handbook states that NOAA agencies can use an acquisition plan in lieu of a Determination and Finding that the
FAR requires to support the contractual decisions made.


                                                       26
U.S. Department of Commerce                                                        Final Report IPE-18585
Office of Inspector General                                                                      May 2008



Table 7: FAR Guidelines on When to Make a Single Award Under an ID/IQ Contract
(1) Only the contractor is capable of providing performance at the level of quality required because the
     supplies or services are unique or highly specialized.
(2) Based on the contracting officer's knowledge of the market, more favorable terms and conditions,
     including pricing, will be provided if a single award is made.
(3) The expected cost of administration of multiple contracts outweighs the expected benefits of making
     multiple awards.
(4) The projected orders are so integrally related that only a single contractor can reasonably perform
     the work.
(5) The total estimated value of the contract is less than the simplified acquisition threshold. 26
(6) Multiple awards would not be in the best interests of the Government.
Source: FAR 16.504

The former contracting officer believed that multiple contractors could not effectively work
together at the buoy center. The director of NOAA’s Acquisition and Grants Office also agreed
that one contractor would better suit the center’s operations, and the current contracting officer
noted that NDBC does not have enough contract specialists to support more than one contractor.
However, neither the former contracting officer nor the director provided any specific
information justifying NDBC’s decision to choose one contractor and did not detail operational
difficulties that would result from having other contractors perform some of the support
functions. Moreover, the acquisition plan did not cite the cost of administering multiple contracts
as a factor for making a single award.

We identified at least three tasks that could likely be performed by other contractors—data
analysis and dissemination, inventory management, and office support services (including
information technology support and mail services). These functions have an annual contract
value of over $3 million and have no inherent connection to the core buoy construction,
maintenance, and repair services required by NDBC. We question whether the contractor with
core competencies for designing, building, and maintaining buoys would also be the optimal
choice for such functions as help desk support and data analysis. Additionally, we did not find
any operational requirement for data analysis to be done on-site at the Stennis Space Center.

NDBC could increase competition for its required support services either by making multiple
awards under an ID/IQ contract structure and competitively bidding for individual task orders, or
by developing separate acquisition strategies for noncore tasks. Greater competition would
increase the chances that the government will get the lowest price and the best quality of
services. Given the large concentration of government business at the Stennis Space Center, it is
likely that other qualified contractors are available to support NDBC work. For example, one of
the companies that bid on the 2005 contract stated that it had personnel at the Stennis Space
Center and would consider bidding on any new acquisitions.

NDBC personnel told us that the data assembly center, office support, and reengineering services
could possibly be handled by one or more additional contractors. NDBC managers, however,
disagreed that a large supply of contractors qualified to perform center work was available
locally, and they did not believe that soliciting bids for current tasks would be in the center’s best
26
     The simplified acquisition threshold is $100,000, with some exceptions.


                                                          27
U.S. Department of Commerce                                                   Final Report IPE-18585
Office of Inspector General                                                                 May 2008

interest. The managers stated that a new, lower-bidding contractor would likely hire workers
from the previous contractor and pay lower wages, and in the process the center might lose
experienced individuals, which could disrupt operations. They also noted that it is more difficult
to hire skilled personnel to work at NDBC since Hurricane Katrina devastated the surrounding
area. The contracting officer questioned the ability of the 3-person contracting team at NDBC to
support additional acquisitions, and raised the possibility that any cost savings would be offset
by increased administrative expenses.

The concerns expressed by NDBC managers and the contracting officer are reasonable, but
NDBC has not yet provided adequate support to show that the chosen contract structure—which
limits competition—is in the best interests of the government. The director’s contention that the
primary result of greater competition would be reduced salaries for personnel already working on
the contract is speculative. New contractors could bring in different management teams, subject-
matter expertise, the ability to support NDBC requirements from off-site locations, or other
unique attributes that could lower costs or improve quality. If bids presented by other contracting
firms do not offer any value over and above those of the incumbent contractor, NDBC would be
under no obligation to choose another contractor.

NDBC’s contract does not contain the “Requirements contract” clause 27 mandating that the
center procure all services from the current support services contractor. Therefore, the contract
may allow the center to undertake open, competitive procurements for noncore services during
the remaining contract years, either by developing separate acquisition strategies for these
functions or by making additional awards under the current ID/IQ contract. NDBC should
evaluate the feasibility of developing separate acquisition strategies for these services or making
multiple awards on the same acquisition, where appropriate. At a minimum, NDBC should better
explain why its chosen contract structure, which limits competition, is in the best interests of the
government.

Recommendations:

We recommend that the NOAA Assistant Administrator for Weather Services and National
Weather Service Director ensure that the National Data Buoy Center takes the following actions:
  13. Evaluate the feasibility of developing separate acquisition strategies or making multiple
      awards under its existing ID/IQ contract for tasks that are not inherently connected to
      buoy construction, maintenance, and repair functions, such as data management,
      inventory management, and office support functions.
  14. If NDBC determines that a single contractor remains in the best interest of the
      government, it should better justify its decision to limit competition for required support
      services.




27
     FAR 52.216-21.


                                                28
U.S. Department of Commerce                                                  Final Report IPE-18585
Office of Inspector General                                                                May 2008




NOAA’s response concurred with our recommendation to evaluate the feasibility of developing
separate acquisition strategies for non-core tasks at NDBC. NOAA also agreed to better justify
decisions to limit competition by combining varied requirements into a single acquisition. The
response also discusses NOAA’s rationale for developing an acquisition plan that limits
competition for individual tasks to one contractor. We note that the discussion contained in
NOAA’s response provides a much better justification for selecting only one contractor than the
brief statement that NDBC had originally included in its acquisition plan and presented to the
Acquisition Review Board. When NDBC develops its next acquisition plan, we strongly
encourage it to fully evaluate the potential costs and benefits of separate acquisitions for non-
core functions, as discussed in the report.




                                               29
U.S. Department of Commerce                                                               Final Report IPE-18585
Office of Inspector General                                                                             May 2008

III. NDBC Actively Monitors Contractor Performance But Should Improve Some Aspects
     of Contract Administration

The FAR requires federal agencies to establish policies and procedures and prepare various
documents to provide effective oversight of service contracts like NDBC’s. 28 To meet this
requirement, the center maintains a well-documented process for assessing the contractor’s
performance and prices for firm-fixed price task orders. It develops independent price estimates
prior to award of those orders and creates quality assurance surveillance plans for each order,
which it uses to provide quarterly performance evaluations.

While NDBC adequately performs many contract monitoring functions, we found it could
improve contract administration in several areas by (1) better aligning the contractor’s
performance metrics with NDBC’s core goal of maintaining data availability; (2) providing the
contractor with performance requirements in a timely manner so that the contractor knows in
advance the criteria against which it will be judged; (3) clarifying how customer service scores
are incorporated into the contractor’s performance assessments; and (4) strengthening procedures
for reviewing contractor invoices.

A. NDBC maintains a well-documented process for assessing contractor performance and
   contract prices

NDBC and NOAA’s contracting personnel effectively perform two key acquisition management
tasks. NDBC has established an effective process for evaluating the contractor’s performance on
individual performance metrics, in part because it allows for input from the individuals who are
best placed to monitor the contractor’s day-to-day activities. In addition, NDBC’s contracting
personnel have prepared independent price estimates for firm-fixed price task orders that have
allowed for negotiation with the contractor on the prices for those task orders.

During the first 2 years of its support services contract (July 1, 2005, to June 30, 2007), NDBC
issued 31 task orders. It prepared a statement of work for each task order (the task order
statement or TOS) detailing the order’s objectives, schedule for completion, and deliverables.
The center also developed a surveillance plan for each order that contains the metrics for
assessing the contractor’s performance for that task, although it was late in preparing most of
these plans (see discussion of this issue in section C of this chapter). The contractor was
responsible for preparing task management plans detailing how it would complete each task
order.

At the time of our review, NDBC had prepared evaluations for the first eight quarters of the
contract period. These evaluations assessed the contractor against the performance metrics in the
31 individual surveillance plans, most of which contain between 4 and 6 separate metrics. 29 Each
task order is assigned an assistant contracting officer’s technical representative (assistant COTR)
who provides a quarterly score and comments to the COTR. The COTR reviews and provides
comments at his discretion, and NDBC’s director also provides his input as part of the evaluation

28
 FAR 37.6 and 46.103.
29
 NDBC has 4 surveillance plans with 3 metrics, 6 surveillance plans with 4 metrics, 11 with 5 metrics, 7 with 6
metrics, 1 with 9 metrics, 1 with 10 metrics, and 1 with 15 metrics.


                                                        30
   U.S. Department of Commerce                                                                    Final Report IPE-18585
   Office of Inspector General                                                                                  May 2008

   process. Table 8 gives an example of this process and the scores for task order 17, which ran
   from July 1, 2005, to June 30, 2006. In this example, the COTR’s overall score for the last
   quarter is calculated by totaling the scores for each metric. The sum of these scores ranges from
   74 to 106. The final performance score is calculated as 90 percent of the COTR’s overall score
   added to the NDBC director’s customer satisfaction rating (which ranges between 7.4 and 10.6).

              Table 8: Task Order 17 Surveillance Plan for April 1, 2006-June 30, 2006
                             Range of Surveillance Plan Metric Scores for                                        Score
                                 Different Performance Categories                                              Ranges for
 Metric                       (Actual Scores for the Period Shown in Yellow)                  Score           Performance
Number        Metric          Fail    Unsat.    Sat.    Excel.     Superior   Outstand.     Calculation         Ratings
               Cost
  1                          11.1     12.9     14.1      15         15.5       15.9                             104-106
            Efficiency                                                                     COTR’s Score        Outstanding
            Customer                                                                      14.1+3.7+20+7.4+
           Satisfaction                                                                    18.5+21.5=85.2        101-103
  2                          3.7       4.3      4.7       5         5.15        5.3
            (COTR’s                                                                                              Superior
             Rating)                                                                      NDBC director’s
                                                                                            Customer             95-100
           Safety, Lost                                                                    Satisfaction         Excellent
  3                          14.8     17.2     18.8      20         20.6       21.2
              Time                                                                           Rating:
          Effectiveness:                                                                        7.4              87-94
  4            Data          7.4       8.6      9.4      10         10.3       10.6                            Satisfactory
           Availability                                                                      Final Score:
                                                                                          (90% of 85.2) and      75-86
          Performance                                                                        (7.4)=84.08,     Unsatisfactory
  5                          18.5     21.5     23.5      25         25.8       26.5
          to Schedule                                                                       equating to an
             Meets                                                                          unsatisfactory       65-74
  6        Technical     18.5    21.5   23.5             25         25.8       26.5              rating          Failure
         Requirements
   Source: NDBC Performance Assessments

   We also found that NDBC adequately prepares independent price estimates for firm-fixed price
   task orders and documents its price negotiations, as required by the FAR. 30 NDBC prepared the
   required price negotiation memoranda for all 18 of its firm-fixed price task orders during the past
   2 years. The center properly documented both government and the contractor cost estimates, and
   maintained records of negotiations and technical evaluations. For 10 of the 18 firm-fixed price
   task orders, the negotiation process resulted in a final price that was lower than initial estimates
   from both NDBC and the contractor. In some cases, this was a result of changes to the scope of
   work for the task order, but in other cases NDBC was able to negotiate a lower price for the same
   scope of work. Table 9 shows NDBC’s estimates for the 18 task orders compared with the
   contractor’s estimates and the final negotiated amounts.




   30
    FAR 15.405, Price Negotiations, states that contracting officers provide all negotiated results in price negotiation
   memoranda.


                                                              31
U.S. Department of Commerce                                                       Final Report IPE-18585
Office of Inspector General                                                                     May 2008



   Table 9: Estimated and Final Negotiated Costs for 18 Firm-Fixed Price Task Orders
                                                                                         Difference
                                        Estimated Costs                Final          Between NDBC
                 Performance                                         Negotiated       Estimates and
 Task Order         Period          NDBC           Contractor          Costs            Final Costs
      1         7/1/05-6/30/06   $2,090,000       $2,389,400        $2,091,100             $1,100
      2         7/1/05-6/30/06    1,156,000         898,600           928,900            (227,100)
      4         7/1/05-6/30/06     446,537          401,200           401,200             (45,337)
      5         7/1/05-6/30/06     478,000          911,800           428,000             (50,000)
      8         7/1/05-9/30/06     253,900          344,000           255,500               1,600
      9         7/1/05-3/31/06     94,000           206,900           149,800              55,800
     10         7/1/05-9/30/05     503,200          489,900           489,900             (13,300)
     11         7/1/05-6/30/06     156,000          221,400           199,500              43,500
     12         7/1/05-6/30/06     560,700          316,100           118,700            (442,000)
     16         7/1/05-9/30/07     886,500          617,400           578,500            (308,000)
     17         7/1/05-9/30/07     135,300          78,100            80,500              (54,800)
     22         8/1/05-9/30/07     240,400          288,000           268,600              28,200
     24         4/1/06-9/30/06     684,000          938,000           740,000              56,000
     26         5/9/06-6/30/07    1,219,000        1,180,000         1,180,000            (39,000)
     27         7/1/06-6/30/07    4,862,710        4,540,000         4,218,392           (644,318)
     28         7/1/06-9/30/06     728,432          521,515           521,515            (206,917)
     29        7/1/06-12/31/06     770,016          785,350           785,350              15,334
     31         7/1/06-6/30/07     945,892          968,139           968,140              22,248
            TOTALS               $16,210,587      $16,095,804       $14,403,597        ($1,806,990)
Source: OIG and NDBC

B. Contractor performance metrics are not well aligned with NDBC’s core goal of
   maintaining data availability

NDBC’s core mission is to maintain data availability of its buoys and C-MAN stations in order
to provide the information needed by forecasters, researchers, and other users. As discussed in
chapter I, NDBC has largely achieved its data availability goals for the DART and TAO arrays
and has maintained consistent data availability for the C-MAN stations, but data availability for
the weather buoys dropped sharply after October 2006 before recovering somewhat during the
summer of 2007. Because NDBC’s contractor handles most functions relating to data
availability, the contract performance metrics should hold the contractor accountable for data
availability rates to the greatest practical extent. Additionally, the contractor’s data availability
goals should be closely linked with those that NWS and NOAA have established for NDBC so
that both NDBC and the contractor have incentives to work together towards common goals.

The metrics used to assess the contractor’s performance should reflect NDBC’s core mission and
should align the center’s interests and those of the contractor. There is ample procurement
guidance available to inform NDBC about ways to strengthen the performance metrics for and
the accountability of its support services contractor. A July 2004 consultant’s study on




                                                  32
   U.S. Department of Commerce                                                                       Final Report IPE-18585
   Office of Inspector General                                                                                     May 2008

   performance-based acquisitions, prepared for Commerce’s Office of Acquisition Management, 31
   emphasizes two key issues: departmental agencies should (1) manage and monitor only the most
   important metrics and (2) ensure that an agency’s program goals are linked to government and
   contractor personnel through performance evaluations and an overall contract surveillance plan.
   In addition, guidance from DOD’s Army Contracting Agency states that metrics must be
   balanced so that no metric is either so insignificant that it offers little reward for the contractor or
   so important that it overshadows all other metrics and neutralizes their motivational effect. 32 The
   Army Contracting Agency handbook also states that the number of metrics is important—too
   many could confuse the contractor or result in one being overlooked.

   NDBC has incorporated a metric for data availability in the surveillance plans for 12 relevant
   contract task orders, in addition to other metrics such as service success, scheduled performance,
   technical requirements satisfied, customer satisfaction, and contractor employee safety. While
   these other metrics may measure important factors, the weight of the data availability metric—
   that has ranged from 5 percent to 35 percent (see Table 10)—does not always adequately reflect
   its importance as NDBC’s core organizational goal. For example, the metric for data availability
   in the task order for the contractor’s management support was not weighted much more heavily
   than the metric for timely mail delivery. 33 For some of the other task orders, the weight of the
   data availability metric is lower than that of other metrics.
             Table 10: Task Orders with Data Availability Metrics (July 2005-June 2007)
                                                                                            Total Number of
Task                                                                            Weight                              Period of
                        Title                             Arrays                             Metrics in the
Order                                                                            (%)                               Performance
                                                                                              Task Order
  1             Contract Management              Weather Buoys and C-MAN           10               10              7/1/05-6/30/06
  7               DART Operations                          DART                    20               5               7/1/05-6/30/06
  10      Preparation of Equipment for O&M       Weather Buoys and C-MAN           20               5               7/1/05-9/30/06
  11       Operational Engineering Support       Weather Buoys and C-MAN           30               3              7/1/05-12/31/05
  13         Scheduled Field Service for         Weather Buoys and C-MAN           20               6               7/1/05-6/30/07
                      CONUS
  14      Scheduled Field Service for Alaska     Weather Buoys and C-MAN           20               6               7/1/05-6/30/06
  17     MON Hardening & Observation Gap         Weather Buoys and C-MAN           10               6               7/1/05-6/30/07
  20        Unscheduled Field Service for        Weather Buoys and C-MAN           20               6               7/1/05-6/30/06
                      CONUS
  21        Unscheduled Field Service for        Weather Buoys and C-MAN           20               6               7/1/05-6/30/06
                       Alaska
  27        Contract Operations & Support    Weather Buoys, C-MAN, DART,          5                15              7/1/06-6/30/07
                      Services                           & TAO
  30            NOOSS Field Service             Weather Buoys, C-MAN, &          35                 3              4/1/06-6/30/07
                                                         DART
  31       NOOSS Equipment Preparation          Weather Buoys, C-MAN, &          30                 3              4/1/06-6/30/07
                                                         DART
C-MAN = Coastal Marine Automated Network; CONUS = Continental United States; DART = Deep-ocean Assessment and Reporting of
Tsunamis; MON = Marine Observation Network; NOOSS = NOAA/NWS/NDBC Ocean Observing Systems of Systems; O&M = Operations
and Maintenance; TAO = Tropical Atmosphere and Ocean; Weather Buoys = buoys that collect general weather and hurricane information.
Source: NDBC contract documents


   31
      Advancing a Performance-Based Service Acquisition Culture throughout the Department, Acquisition Solutions,
   July 2004.
   32
      Army Contracting Agency, Award Fee Contract Handbook, September 2003.
   33
      For task order 27, the weight of the performance metric for data availability is 5 percent, while the weight for the
   mail service metric is 3.78 percent.


                                                                33
     U.S. Department of Commerce                                                            Final Report IPE-18585
     Office of Inspector General                                                                          May 2008

     We also found that the contractor is held accountable for three different sets of data availability
     goals that are different from those established for NDBC by NWS and NOAA management. As
     shown in Table 11, NWS management holds NDBC accountable for weather buoy goals of 85
     percent and C-MAN goals of 88 percent, but NDBC has established various sets of goals for its
     contractor. By establishing different sets of goals for different task orders, NDBC has not clearly
     articulated what data availability targets the contractor should be working towards. Additionally,
     the discrepancy between the annual performance targets for NDBC management and the
     quarterly performance targets for the contractor might diminish the incentives of the two
     organizations to work together effectively, because they are not always striving for the same
     outcome. The data availability goals established for the contractor by NDBC should be
     consistent and closely linked to NDBC’s to maximize incentives for the contractor and NDBC to
     work with NDBC to meet data availability targets.

                              Table 11: Weather Buoy and C-MAN Data Availability Goals
                                          2005    2005    2006    2006    2006     2006     2007     2007    2007
                                          Q3      Q4      Q1      Q2      Q3       Q4       Q1       Q2      Q3
                NWS Goals for NDBC
                                                                    85% (Annual Average)
Weather Buoys




                Management
                Surveillance plans for
                Task Orders 11, 13, 14,   91.8%   87.7%   83.6%   89.1%   91.8%    87.7%    89.1%     N/A      N/A
                20, 21
                Surveillance plans for
                                           N/A     N/A     N/A     N/A    84.0%    81.0%    78.0%     N/A      N/A
                Task Orders 30 & 31
                Surveillance plans for
                                          83.0%   83.0%   83.0%   83.0%   83.0%    83.0%    83.0%     N/A      N/A
                Task Orders 10 & 17
                NWS Goals for NDBC
                                                                   88.0% (Annual Average)
                Management
                Surveillance plans for
C-MAN




                Task Orders 11, 13, 14,   94.1%   95.1%   92.3%   93.4%   94.1%    95.1%    92.3%     N/A      N/A
                20, 21
                Surveillance plans for
                                           N/A     N/A     N/A     N/A    85.0%    84.0%    84.0%     N/A      N/A
                Task Orders 30 & 31
                Surveillance plans for
                                          91.0%   91.0%   91.0%   91.0%   91.0%    91.0%    91.0%     N/A      N/A
                Task Orders 10 & 17
     Sources: NDBC, NWS Office of Observing Systems

     NDBC’s director and other center personnel noted that data availability is a somewhat flawed
     performance metric because it can be affected by factors beyond the control of center managers
     and the contractor, such as the availability of adequate ship time and spare parts to repair the
     weather buoys (see chapter I for a discussion of these issues). We acknowledge that there are
     some factors either partially or completely outside of the control of the contractor, such as
     adverse weather events or inadequate availability of government-furnished equipment. However,
     such factors should not prevent the performance metrics from adequately incorporating NDBC’s
     primary operational goal, especially because the contractor does have direct control over many
     key factors that do impact data availability, such as planning and executing service visits. In
     addition, the fees paid to the contractor are tied to its performance on individual task orders.

     NDBC’s COTR stated that the center’s bottom-up approach of incorporating data availability
     metrics in individual task orders has not been successful in achieving data availability goals for
     weather buoys because the contractor’s support functions have been broken up into specific tasks


                                                             34
U.S. Department of Commerce                                                   Final Report IPE-18585
Office of Inspector General                                                                 May 2008

that are too far removed from the overall objective of maintaining data availability.
Alternatively, he proposed incorporating one goal for data availability in the overall contract
surveillance plan and award-term plan. The overall surveillance plan documents NDBC’s key
operational and contracting goals and the award-term plan documents how and whether the
contractor will earn an award-term year. While data availability should be a substantial part of
the contract objectives that are specified in these plans, it should not be ignored in the
surveillance plans for individual contract tasks, particularly since NDBC has recently
consolidated its requirements into a fewer number of broader task orders. Additionally, the
contractor’s fee payments are tied to the performance assessments for individual task orders, so it
is important to make data availability goals explicit in the performance metrics for these task
orders so that the fee amounts will be affected by its success or failure in maintaining data
availability.

Recommendation:

We recommend that the NOAA Assistant Administrator for Weather Services and National
Weather Service Director ensure that the National Data Buoy Center takes the following actions:
  15. Evaluate and adjust as necessary all of the performance metrics in the task orders and
      overall surveillance plan for its support services contractor to ensure they (1) give
      adequate weight to NDBC’s core objective of maintaining data availability; (2) contain
      performance goals that are consistent and closely linked with the data availability goals
      developed for the center by NOAA; and (3) account for documented factors outside of
      the contractor’s control, as appropriate.



NOAA concurred with our recommendation to reevaluate the metrics used to assess the
contractor’s performance to ensure their relevance and consistency. The response stated that
NDBC has published new quality assurance surveillance plans for the contractor.

C. NDBC has not provided the contractor with timely and transparent performance
   requirements

The third year of the support services contract began on July 1, 2007, but as of November 19,
2007, NDBC had not provided the contractor with three key documents—the award-term plan,
overall contract surveillance plan, or individual surveillance plans for the task orders issued for
the current contract year (orders 33-35). Without these documents, it is more difficult for NDBC
to manage the contract effectively. After 2 years of providing services, contractor staff told us
that they still do not know the criteria for obtaining a contract extension, nor do they know the
performance requirements for task-order work already under way. NDBC told us it was still in
the process of developing these documents, but did not explain why the documents were not yet
completed. In addition, we found that NDBC has not clearly defined the role of the director’s
customer service score in the performance assessment process.

NDBC has not prepared an award-term plan. As of November 19, 2007, NDBC had not
developed an award-term plan, which describes how the government will decide if the contractor


                                                35
U.S. Department of Commerce                                                                 Final Report IPE-18585
Office of Inspector General                                                                               May 2008

is eligible for an award-term year. During our review, NDBC did establish an award-term board
at the initiation of the contracting officer to assess whether the contract should be extended.
However, it has not yet identified the criteria to be used in deciding whether to extend the
contract beyond its initial 5-year base term and has not communicated these criteria to the
contractor. The COTR stated that the first 2 years of the contract were “mock” years that would
not be used to determine the first award-term year. The COTR also stated that because the
award-term plan was not prepared as of November 1, 2007, NDBC would have only three
quarters—and maybe fewer—to evaluate the contractor’s performance before making a decision
on the first contract extension. According to the contract, NDBC must make a decision on the
first award-term year by June 30, 2008. The COTR and contractor personnel told us that they
have only briefly discussed the award-term plan.

Contractor personnel emphasized to us in September 2007 that they need to see the award-term
plan that details the criteria for obtaining the first extension as soon as possible. Without the
plan, the contractor does not know what criteria NDBC will use to make its decision, and
contractor personnel are concerned that they may not have time to adjust their performance if
need be. The contract does not explicitly state when the award-term plan should be completed
and the Department, NOAA, and the FAR also are silent on this matter. But timely completion of
these plans should provide greater transparency and promote communication between the
contractor and NDBC. NASA, which has developed more complete guidance on using award-
term incentives, requires award-term plans to be prepared when the contract solicitation is issued
so that bidders understand what will be necessary to earn award-term extensions. NDBC should
complete the award-term plan as soon as possible.

NDBC is late in preparing contract surveillance plans. NDBC was late in preparing the
surveillance plans for task orders 33-35. These task orders were initiated on July 1, 2007, but the
plans had not been completed as of November 19, 2007. 34 Without the surveillance plans, the
contractor did not know what criteria will be used to assess its performance and determine the
corresponding amount of fee that it would be paid. At the end of September, the contractor was
due its regular quarterly performance assessment (July 1, 2007-September 30, 2007), which
would determine the fee that it would be paid. At that time, however, the contractor had still not
been told what performance goals it was expected to meet during the quarter.

Since its current contract went into effect on July 1, 2005, NDBC has frequently been late in
preparing surveillance plans for individual task orders. We reviewed the plans for 19 of the 34
task orders, and found that at least 15 of these were not prepared at the time that the task order
went into effect. We could not determine when the remaining 4 were developed. (See table 12.)




34
     NDBC has since completed these plans, but the date on which they were finalized is uncertain.


                                                          36
U.S. Department of Commerce                                                                Final Report IPE-18585
Office of Inspector General                                                                              May 2008



         Table 12: Time From Task Order Origination to Signed Surveillance Plan
 Task Orders         Start of Task Order Period         Surveillance Plan Signed             Days Late
       7                        7/1/2005                      No Date Indicated                    ?
       10                       7/1/2005                           9/27/2005                      88
       11                       7/1/2005                      No Date Indicated                    ?
       13                       7/1/2005                           7/21/2005                      20
       14                       7/1/2005                           7/21/2005                      20
       16                       7/1/2005                          10/13/2005                     104
       17                       7/1/2005                          10/13/2005                     104
       18                       9/1/2005                           12/5/2005                      96
       20                       7/1/2005                      No Date Indicated                    ?
       21                      8/19/2005                      No Date Indicated                    ?
       22                      8/26/2005                          10/13/2005                      48
       26                       5/9/2006                           6/1/2006                       23
       27                       7/1/2006                           8/1/2006                       31
       30                       7/1/2006                           7/21/2006                      20
       31                       7/1/2006                           7/21/2006                      20
       32                       7/1/2006                           7/28/2006                      27
       33                       7/1/2007                 Not Finalized as of 11-19-07            142*
       34                       7/1/2007                 Not Finalized as of 11-19-07            142*
       35                       7/1/2007                 Not Finalized as of 11-19-07            142*
* The surveillance plans for task orders 33, 34, and 35 have been completed, but the date on which they
were finalized is uncertain.
Source: NDBC documents

The FAR states that surveillance plans should be prepared in conjunction with the statement of
work and acquisition of services. DOD also emphasizes that these plans should be prepared in a
timely manner to avoid disagreement between the government and the contractor on the tasks to
be performed. 35 NDBC’s COTR stated that he had been working on the plans for task orders 33-
35 for a period of time but did not explain why these plans and the plans for other contract task
orders were not completed in a timely manner. Contractor staff stated that because NDBC was
implementing changes to the fee scale, having the new surveillance plans as soon as possible
would help them understand how they may be affected by the changes.

NDBC has not prepared an overall contract surveillance plan. FAR 46.4 states that contract
surveillance plans should be prepared at the same time as the statement of work or when services
are acquired. 36 The overall contract surveillance plan documents NDBC’s key objectives and
performance expectations for the contract. The statement of objectives for the NDBC support
services contract was prepared in May 2005 but the overall surveillance plan had not been
completed as of November 19, 2007. At the time of our review, NDBC’s COTR told us the plan
was being prepared and NDBC had shared drafts of the plan with the contractor. The draft
overall surveillance plan is the only place that NDBC has documented the role of the director’s
customer service scores in assessing contractor performance. However, drafts of the plan do not
35
     DOD OIG Report D-2006-010, Contract Surveillance for Service Contracts, October 28, 2005.
36
     Also see FAR 37.602-2.


                                                        37
U.S. Department of Commerce                                                    Final Report IPE-18585
Office of Inspector General                                                                  May 2008

definitively establish the key contract goals that the contractor is responsible for achieving and
thus are not particularly useful for motivating contractor performance. Without the overall plan,
there are no specific, documented performance objectives for the contract as a whole, even
though the center has developed surveillance plans for individual task orders.

NDBC should clarify and disclose the role of customer service ratings in the performance
assessment process. NDBC has not clearly defined the role of customer service ratings in its
performance assessments. This has resulted in disagreements about the role of the NDBC
director in assessing the contractor’s performance and has affected the contractor’s fee payments.
For the first eight quarterly performance assessments, the director’s customer service ratings
accounted for 10 percent of the overall score, with the remaining 90 percent coming from other
performance metrics outlined in the task order’s surveillance plan. (In some cases, customer
service may also be a performance metric assessed by the COTR.) The role of the director’s
customer service ratings in assessing the contractor’s performance has not been specified in any
of the task order surveillance plans or other official documents provided to the contractor.

Because the role of the director’s assessments has not been properly documented, there is no
consensus on the allowable range of scores for the director’s assessments or whether they should
effect the contractor’s overall performance scores. The contracting officer stated that the
allowable range of scores is 7.4 to 10.6, but the director provided scores outside of this range on
24 occasions. In some of these cases, the director’s scores changed the fees payable to the
contractor. After we asked about these customer service scores, the contracting officer changed
the director’s past scores so that they fell within the 7.4 to 10.6 range, which resulted in some
retroactive changes to the fees paid to the contractor. However, these changes did not help
establish transparency for the contractor on the assessment methodology that would be used to
determine the amount of fees that it would receive. To ensure consistency and transparency in
the performance assessment methodology, NDBC should clearly define the role and allowable
ranges of the director’s customer service scores in each relevant surveillance plan. All future
performance assessment methodologies that materially affect the contractor should be clearly
and promptly documented and disclosed to the contractor.

Recommendations:

We recommend that the NOAA Assistant Administrator for Weather Services and National
Weather Service Director ensure that the National Data Buoy Center takes the following actions:
  16. Promptly complete required performance assessment plans for its support services
      contract, including the award-term plan and overall surveillance plan for the contract.
  17. Define the role of the NDBC director’s customer service scores and allowable range of
      scores in each relevant surveillance plan.
  18. Prepare all future surveillance plans prior to the start of task order periods and ensure full
      and prompt disclosure to the contractor of all future performance assessment
      methodologies, especially those that materially affect its support services contractor.




                                                 38
U.S. Department of Commerce                                                    Final Report IPE-18585
Office of Inspector General                                                                  May 2008




NOAA’s response concurred with our recommendation on developing timely and transparent
performance requirements for NDBC’s support services contractor. NOAA agreed to complete
all required performance plans for the contract, and notes that it has published a schedule of due
dates for each phase of the evaluation process. Additionally, NOAA concurred with our
recommendations to define the role of customer service scores in assessing the contractor and
prepare all future surveillance plans prior to the start of task order periods. The response outlines
appropriate actions to address these recommendations. Since the response also states that NOAA
has removed the NDBC director’s customer service scores from its contract performance
assessment process, it is not necessary to prepare a separate overall contract surveillance plan to
define the role of those customer service scores. We agree that the award-term plan can serve to
define and prioritize overall contract performance objectives.

D. NDBC has not established an adequate process for reviewing the contractor’s invoices

We found limited documentation to show that contractor invoices are properly reviewed and
signed by all appropriate NDBC personnel before payment is authorized. We discussed the
invoice review process with the COTR, assistant COTRs, and the center’s contracting staff and
finance office. The COTR has not defined and documented the roles and responsibilities of the
four assistant COTRs, the contracting officer, and the two assistant contracting officers, which
may explain the conflicting accounts we received from the COTR and assistant COTRs
concerning their roles in reviewing invoices for payment.

The COTR initially told us he typically signs all invoices but the four assistant COTRs sign them
on occasion. (All the invoices we reviewed were signed by the COTR.) The COTR told us that
the assistant COTRs have direct knowledge of the contractor’s work and thus are in the best
position to assess whether the contractor invoices should be paid. However, the COTR
subsequently told us that his assistants do not sign invoices but only review summary
information on them. Two of the four assistant COTRs told us that they do not review and sign
invoices; the other two stated that they review and sign all invoices. However, we could not find
any identifying initials, remarks, comments, signatures, or other records from any of the four
assistant COTRs indicating their review. Other NDBC personnel confirmed that the four
assistant COTRs have never reviewed or signed invoices.

In the absence of any NDBC documentation of this, Figure 5 documents our understanding of
NDBC’s process for reviewing contractor invoices during the last 2 years.




                                                 39
U.S. Department of Commerce                                                                 Final Report IPE-18585
Office of Inspector General                                                                               May 2008

        Figure 5: NDBC’s Process for Reviewing Contractor Invoices (As of August 2007)

              1                     2                      3                          4                    5

     Contractor sends invoices Invoices are given to Invoices are sent to   Invoices are returned to    NOAA’s
      to NDBC’s two COs who        NDBC’s Finance     COTR for review and     the two contracting       payment
     review the fee calculation, Office, which enters     signature.         officers to ensure that   processing
          provide summary             accounting                                they are properly       center in
          information to the     information on them.                       authorized before being    Kansas City
       assistant COTRs, and                                                    sent for payment.        pays the
      discuss the invoices with                                                                        contractor.
         assistant COTRs if
              necessary.



Source: NDBC

NOAA Administrative Order 203-31, Payment of Invoices, indicates that NOAA agencies must
“establish and maintain procedures covering the payment process to assure that invoices are
reviewed, processed, and paid in accordance with applicable regulations and the terms and
conditions of the purchase agreement.” 37 GAO has stated that an undocumented invoice and
approval process can lead to payment of questionable contractor costs. 38 And in fact, one
assistant COTR at NDBC found two invoices containing a total of $66,000 in personnel costs
that were erroneously charged to task orders assigned to him. This assistant COTR had all
invoices associated with his task orders reviewed by both the contracting officer assigned to the
orders and relevant contractor staff to ensure the charges were valid. However, at the time of our
review NDBC had no requirement for such reviews, and the remaining three assistant COTRs
had not requested reviews of the invoices for the functions that they monitor. Without adequate
review procedures, it is unclear whether NDBC has approved payments for other questionable
costs.

Recommendation:

We recommend that the NOAA Assistant Administrator for Weather Services and National
Weather Service Director ensure that the National Data Buoy Center takes the following action:
  19. Improve its review of contractor invoices by: (1) establishing and documenting the
      process and procedures for reviewing invoices submitted by the contractor which, at a
      minimum, require knowledgeable program officials to review and approve invoices; and
      (2) verifying that the process and procedures are being followed by all parties involved,
      including those of the contracting officers, assistant COTRs, and finance personnel.




37
  NAO 203-31, Payment of Invoices, effective 4/24/90.
38
  GAO-06-306, Weak Controls over Trilogy Project Led to Payment of Questionable Contractor Costs and Missing
Assets, February 2006.


                                                         40
U.S. Department of Commerce                                                  Final Report IPE-18585
Office of Inspector General                                                                May 2008




NOAA concurred with our recommendation that NDBC improve its review of contractor
invoices and has agreed to establish a process to ensure that the invoices are reviewed and
approved by knowledgeable officials before they are paid.




                                               41
U.S. Department of Commerce                                                           Final Report IPE-18585
Office of Inspector General                                                                         May 2008

IV. Commerce Should Provide Guidance on Award-term Contracts and Clarify Procedures
    for Departmental Review of Major Acquisitions

The FAR does not provide any guidance on the use of award-term incentives in contracts, and
during our review we found that the Department has no guidance on properly awarding and
administering such contracts. NOAA’s Acquisition Handbook contains one sentence about
award-term contracts—explaining how to calculate their total value. 39 This lack of departmental
guidance may have contributed to some of the concerns that we found in the design, execution,
and administration of the award-term provisions in NDBC’s support services contract. We also
found that Commerce has not clearly defined and documented policies and procedures for its
Acquisition Review Board, which factored into NOAA’s execution of a contract with a possible
10-year term without clear legal authority to do so.

A. Commerce lacks guidance on award-term contract provisions

Our review of the award-term provision in NDBC’s contract raised several concerns that could
have been avoided if Commerce or NOAA had the proper guidance for (1) determining when it
is appropriate to use award-term provisions; (2) establishing the maximum duration of contracts
with award-terms; (3) using contract language that clearly describes the award-term and related
provisions, including the government’s rights to execute the award-term even after the award-
term board finds that the contractor has “earned” the additional term; (4) addressing
appropriations law implications of using award-terms; (5) pricing award-term periods at the time
of the initial contract award; and (6) administering award-terms and using award-term boards.

NOAA contracting personnel agreed that NOAA lacks guidance on award-term contracts and
that such guidance would be useful. Departmental procurement officials also acknowledged the
need for such guidance at the departmental level, but these officials gave two reasons why
guidance is not available: first, this type of contract is new to Commerce, and second, they lack
resources to prepare it. Departmental procurement officials further noted that Commerce asked
the FAR Council to prepare guidance, but the council rejected the request. We found that, given
the absence of guidance from the FAR Council, the Department of Defense and NASA have
prepared their own policies on award-term contract provisions. Commerce should issue guidance
on the proper use of award-term incentives, borrowing from DOD, NASA, or other existing
guidance on the matter, as appropriate.

B. Commerce has not defined policies and procedures for its Acquisition Review Board

Commerce’s Acquisition Review Board lacks a charter, policies, and procedures to track the
status of its recommendations before agencies initiate acquisitions. The board, which includes
the Department’s Procurement Executive, made seven recommendations on the NDBC support
services contract in a memorandum to the director of NOAA’s Acquisition and Grants Office.
One of these recommendations was for NOAA/NDBC to “obtain further guidance from the
Office of General Counsel (OGC) regarding the ten year term of the contract.” Despite the
board’s recommendation, neither NOAA nor NDBC requested a legal opinion on the contract

39
  National Oceanic and Atmospheric Administration, Acquisition Handbook, Version 3.1, October 31, 2004, page
124.


                                                     42
U.S. Department of Commerce                                                 Final Report IPE-18585
Office of Inspector General                                                               May 2008

term and OGC never provided a legal opinion on the length or type of the contract. On May 20,
2005, 9 months after the recommendation was made, NOAA executed the support services
contract with a potential 10-year term.

When we met with Commerce procurement and OGC personnel, they stated that the board is an
advisory group whose purpose is to approve the acquisition plan, not the actual acquisition.
Because the board lacked a charter, policies and procedures, and explicit authority for approving
or rejecting acquisitions, there was no process in place to prevent NDBC from proceeding with
the competition for its support services contract without acting on the board’s recommendation.
When the board’s recommendations are not implemented by departmental agencies, procurement
officials noted the board’s only recourse is to request that the Department’s Procurement
Executive revoke the contracting authority of individual contracting officers. Staff told us that
the Office of Acquisition Management was currently preparing a charter outlining policies and
procedures for the board, but this had not been completed as of November 2007. In order to
ensure that the board is an effective oversight tool for major departmental acquisitions,
Commerce should prepare an administrative order clarifying the board’s role, responsibilities,
and authorities.

Recommendations:

We recommend that the Chief Financial Officer and Assistant Secretary for Administration
ensure that the Department takes the following actions:
   25. Issue guidance for Commerce contracting officers on the proper use of award-term
       incentives, borrowing from DOD, NASA, or other sources of such guidance, as
       appropriate.
   26. Prepare a departmental administrative order (a) clarifying the role, responsibilities, and
       authorities of the Commerce Acquisition Review Board and (b) specifying how
       contracting officers should resolve concerns raised by the board or otherwise address the
       board’s recommendations before proceeding with procurement actions or contract award.



The Department’s Chief Financial Officer and Assistant Secretary for Administration provided a
separate response concurring with the recommendations made in this chapter. The Chief
Financial Officer agreed to develop Commerce-specific guidance on the use of award-terms in
contracts. He also noted that Commerce will seek to address the need for government-wide
guidance on the use of award-terms through an existing interagency task force on incentives in
government contracting. Additionally, the response described a departmental initiative to
establish an Investment Review Board, which will be codified in an administrative order that will
also “refine” the role and structure of the Acquisition Review Board. We ask that the Chief
Financial Officer and Assistant Secretary for Administration provide further details on this
initiative in his action plan and specify the respective roles of the Acquisition Review Board and
the Investment Review Board (IRB), if these remain separate entities after the IRB’s
establishment.




                                               43
U.S. Department of Commerce                                                          Final Report IPE-18585
Office of Inspector General                                                                        May 2008

V.    Improved Coordination and Greater NOAA Management Oversight Could Facilitate
      Transitions from Research to Operations

As mentioned earlier, NOAA completed transition of the DART buoys to NDBC in 2003 and
began the TAO transition in 2005. The Pacific Marine Environmental Laboratory and NDBC
jointly planned the DART transition, but NOAA directed the transfer of the TAO buoys over the
objections of PMEL staff. During the transitions, both buoy programs had significant challenges
that highlight the need for better planning and coordination between buoy research and
operations groups, and greater involvement from NOAA management in future transitions. In
addition, we found that there is a need for better internal NOAA communication and cooperation
on research and development projects, such as the ones that PMEL and NDBC are undertaking to
improve the design of the DART and TAO arrays for the future.

A. Unclear data collection requirements contributed to post-transition concerns about DART
   data management

In 2001, PMEL and NDBC began transitioning the DART program by exchanging information
and developing a timeline with specific transition milestones. 40 Throughout 2002, NDBC and
contracting personnel visited PMEL headquarters in Seattle and received training on assembly,
testing, and service repair. By 2003, NDBC began purchasing DART equipment. After several
joint buoy retrievals and a successful service repair by NBDC, the center assumed total
responsibility for the DART network in September 2003.

In spite of this pre-transfer coordination, neither
PMEL nor NDBC clearly defined data collection             Figure 6: DART Buoy Diagram
requirements for the DART system. However,
this lack of clarity did not become evident until
later in the transition. The unclear data collection
requirements and on-site technical limitations
contributed to the loss of important observational
data needed by researchers studying the
December 2004 tsunami in Indonesia. During
2005, NDBC serviced six Pacific Ocean DART
buoys. NDBC staff stated that the technicians
were unable to retrieve two of the six bottom
pressure recorders, which remain on the ocean
floor. In addition, the technicians did not bring
new data cards to replace the data cards for the
four recorders they did retrieve. Neither did they
have a storage device to download the data before
reusing the cards. As a result, the information on
the data cards was overwritten. Scientists had
planned to conduct a detailed analysis of the full   Source: NDBC
DART data set for this major tsunami event because the data could help them refine tsunami

40
  The Pacific Marine and Environmental Laboratory. Deep-Ocean Assessment and Reporting of Tsunamis:
Transition from PMEL to NDBC. http://nctr.pmel.noaa.gov/Dart/dart_trans.html (accessed Nov 20, 2007).


                                                     44
U.S. Department of Commerce                                                      Final Report IPE-18585
Office of Inspector General                                                                    May 2008

forecast models and develop better hazard mitigation strategies. As a result of this data loss,
researchers have been unable to fully evaluate and refine their prediction models.

NDBC staff told us that problems that contributed to the loss of data from the 2004 tsunami have
been resolved, since the technicians now have data cards and storage devices to download the
information during a service visit. As a result, NDBC does not anticipate similar problems in the
future. The NDBC director also noted that the 2005 service schedule was very aggressive, and
the center sent staff out very quickly in response to heightened concern about tsunami
forecasting. This concern led NDBC to place greater emphasis on repairing the DART buoys
rather than collecting the data.

However, data collection procedures and
                                                            DART System Event Mode Reporting
requirements have remained a concern for PMEL.
In June 2007, PMEL and the National                   The DART system generally operates in standard
Geophysical Data Center (NGDC) sent a memo to mode and reports temperature and pressure
NDBC clarifying research needs for DART               readings in 15-minute intervals. Once DART
information. The memo requested that NDBC             software detects an event or is activated by
                                                      NOAA’s tsunami warning centers, the system
conduct four predeployment DART calibration           switches to data transmission in event mode and
procedures and record specific information            reports in 15-second intervals, followed by
provided by the DART system (metadata).               1-minute averages. Event mode messages contain
According to NDBC officials the center did not        the time and occurrence of the event. After 4
formally respond to the memo. But they told us        hours of event mode reporting, the system returns
                                                      to standard mode transmission if no further events
that they have taken steps to meet three of the       are detected.
four requests and said they lacked the resources to
address the fourth. At the time of our review, PMEL and NGDC personnel were still concerned
that NDBC had not addressed all of their data collection requirements, but they had not discussed
those concerns with NBDC since issuing the memo.

Additionally, NOAA’s two tsunami warning centers have requested that NDBC provide them
with the ability to simultaneously activate multiple DART buoys to event mode transmission.
Currently, the warning centers must activate each DART buoy separately from standard to event
mode reporting (see box). Prior to making their request, the tsunami centers contacted PMEL to
see if simultaneous activation was possible and PMEL indicated that it should not be difficult to
implement. When a tsunami manager discussed the activation change with NDBC and NWS
management, he was told that the request must go through NOAA’s observing systems
requirements process, so the manager submitted the request as directed. NDBC did not conduct a
formal analysis to determine if it would have been feasible to implement the simultaneous DART
activation system, although NOAA will have to ensure that such an analysis is conducted at
some point in order to assess the cost and complexity of the request. According to the NDBC
director, the center did not want to negatively impact the DART system.

Several NOAA officials indicated that since the requirements process is lengthy, the activation
change had not yet been approved as of November 2007, and they do not expect approval
anytime soon. The tsunami warning centers emphasized that recent increases in seismic activity
have further heightened their need for a streamlined, remote activation mechanism as soon as
possible.



                                                  45
U.S. Department of Commerce                                                         Final Report IPE-18585
Office of Inspector General                                                                       May 2008



Recommendation:
We recommend that the NOAA Assistant Administrator for Weather Services and National
Weather Service Director ensure that NDBC takes the following actions:
    20. Develop a formal process to respond to emerging needs of key users of buoy data and
        provide updates to the requesting organizations on the status of all requests. If the center
        determines that it does not have the resources to meet a request, it should communicate
        this information to the requesting organization and NWS Director so that NOAA can
        prioritize and plan to address the request by another means if appropriate.




NOAA concurred with this recommendation and indicated that the appropriate NDBC Project
Manager, with assistance from NDBC’s regional coordinators, will “coordinate, document, track,
and manage all key users’ emerging needs until completion.” NDBC will forward issues that
exceed its scope of authority or resource allocation to NOAA’s Integrated Ocean Observing
System Program Office for inclusion in its budget planning and execution.

B. Inadequate planning and limited NOAA oversight contributed to transition difficulties for
   the TAO buoys

PMEL developed the TAO array to obtain real-time climate observations of the tropical Pacific
Ocean and completed the deployment of the buoy array in December 1994. Today, there are 55
TAO buoys. PMEL staff did not anticipate TAO operations would be transferred to NDBC. They
and other NOAA researchers told us that the science of climate observations is still in the
exploratory stages and scientists have not                     Developing the TAO Buoy Array
defined all of the observational requirements
for these systems. Many NOAA scientists told         After the 1982 and 1983 El Niño events, which
us that operations of climate observing              resulted in ocean temperature changes that affected
systems, including TAO, should be managed            weather patterns, PMEL began developing the TAO
                                                     array to provide real-time climate observation of the
by the scientists who use the data to ensure         tropical Pacific. Scientists use data from the array to
the systems optimally meet the emerging              monitor, predict, and improve their understanding
needs of the research community. PMEL staff          of El Niño cycles in the Pacific and to better
questioned the benefits NOAA gained from             understand and measure global climate occurrences.
the transition, because in their estimation,
                                                     Since completing deployment of the original TAO
there has been no significant improvement in         array in 1994, PMEL has deployed similar arrays in
data quality, management efficiency, or cost-        the tropical Atlantic and Indian Oceans in
effectiveness. On the other hand, NWS                conjunction with international partners. PMEL
managers told us that the array was ready to         retains its role as the chief U.S. operator and its
be transitioned to operations because the            international partners play a significant role in
                                                     servicing the arrays.
regular maintenance and repair of the buoys
did not require the efforts of NOAA’s top research scientists. The former assistant administrator
for NWS likened the task of maintaining the TAO array to “changing the oil.” He noted that
climate researchers still have access to the data, but the buoy operations, maintenance, and
repairs are handled by NBDC.


                                                    46
U.S. Department of Commerce                                                  Final Report IPE-18585
Office of Inspector General                                                                May 2008


During the 2005 TAO transition, NDBC received (1) inadequate documentation for buoy
maintenance procedures, (2) incomplete technical specifications for buoy components, and (3)
insufficient funding to complete a required technology refresh to replace obsolete components.
Additionally, NOAA did not specifically provide funding to support data collection and dual
operations at both PMEL and NDBC during the transition period. While NDBC has since
obtained buoy maintenance documentation and technical specifications, funding shortages have
resulted in delays to the TAO refresh effort. NDBC now estimates that it will not complete the
TAO refresh until FY 2013—5 years later than the transition plan’s original target.

We found that inadequate planning and limited involvement from senior NOAA managers
contributed to these transition problems. The TAO transition plan, prepared prior to the transition
in August 2004 and approved by NOAA’s executive council, clearly states that custom-built
sensors for the buoys were approaching obsolescence and needed replacement. In fact, the plan
states that the transition would not be considered officially complete until the sensors were
replaced and the refreshed systems proved their reliability in the field. The plan also estimated
that the technology refresh would be completed by fiscal year 2008. During our review, several
NOAA officials indicated that sufficient funding was not factored into the transition plan. While
normal TAO operating funds were transferred from PMEL to NDBC, NOAA did not provide
additional funds to upgrade equipment and sustain data collection and other dual operation
activities at both PMEL and NDBC during the transition period.

We also found that differences between organizational cultures at NDBC and PMEL impacted
the transition. According to PMEL staff, PMEL emphasizes data collection rather than
documentation of the procedures taken to collect it because it is a research organization. Thus,
maintaining the detailed technical documentation of the type required by NDBC was not a
priority. In contrast, NDBC staff noted that the center is an operation organization that
necessarily emphasizes operational procedures and needs clear documentation to support buoy
repair, data collection, and information technology management. Prior to the TAO transition,
PMEL and NDBC did not adequately discuss NDBC’s requirements for technical
documentation, and NOAA management did not take actions to ensure that PMEL’s
documentation would meet the center’s needs. Both PMEL and NDBC acknowledged that at
times cultural differences and personalities complicated communication and coordination
between them.

In spite of these difficulties, the TAO transition has progressed, coordination between PMEL and
NDBC is improving, and NOAA requested and expects to receive funds for the technology
refresh as part of its FY 2008 appropriation. And from FY 2005 until late 2007, a PMEL scientist
served in an advisory capacity while center technicians repaired TAO buoys at sea. NDBC has
also deployed a test buoy with the refreshed sensors to ensure that the data collected is accurate
and meets climate monitoring principles. While completing TAO buoy repairs, NDBC
technicians install other sensors to support additional PMEL research. The National Weather
Service also increased funding beginning in FY 2008 to cover the cost of the TAO refresh.




                                                47
U.S. Department of Commerce                                                             Final Report IPE-18585
Office of Inspector General                                                                           May 2008

Recommendation:
We recommend that the Under Secretary of Commerce for Oceans and Atmosphere and the
Administrator for the National Oceanic and Atmospheric Administration ensure that the
following action is taken:
       21. Require NOAA’s research organizations to adequately document and retain the technical
           specifications and maintenance procedures for research systems so that this information
           can be made available to ensure their effective operations if and when those systems are
           transferred to NOAA’s operational components.



NOAA concurred with our recommendation and emphasized that it is committed to maximizing
the value of its research by ensuring the successful transition of research to operations. To
implement the recommendation, NOAA is updating its policy on the transition of research
programs to operations (NOAA Administrative Order 216-105). The revised order will require
all NOAA research organizations to adequately document the technical specifications and
maintenance procedures for research systems and make this documentation available to NOAA
operating units that assume responsibility for these systems.

C. NOAA’s 2005 administrative order on transitions does not fully address difficulties arising
   from the DART and TAO transitions

After the DART and TAO transitions began, NOAA issued an administrative order outlining the
process for transitioning future programs from research to operations. 41 These two transitions
were among the first NOAA systems transferred from research to operations and some of the
lessons learned were incorporated into the administrative order. This guidance identifies the roles
and responsibilities of individuals involved in the transition, establishes policies for future
transitions, outlines the role of NOAA’s budget planning process, and requires the development
of a transition plan. But it does not provide sufficient instruction on how to develop these plans
and does not adequately address post-transition requirements.

Deficiencies in the DART and TAO transition plans show the need for improved guidance. The
DART transition plan did not clearly document data collection needs. The TAO plan did not
adequately identify transition funding requirements or articulate the reasons for NOAA’s
decision to make the transfer, the benefits of which some NOAA personnel question.

The administrative order also does not discuss the need for transition plans to (1) clearly define
requirements for documenting technical specifications and maintenance procedures for systems
prior to their transfer to operations or (2) address how the operational system will meet the
evolving needs of research or other organizations or outline procedures for meeting them, as
appropriate. While transition plans may not be able to foresee a program’s future requirements, it
is important that the plan at least identify how emerging needs will be communicated to the
operational organization and what steps the operator will take in response.


41
     NOAA Administrative Order 216-105, Policy on Transition of Research to Application. May 2005.


                                                       48
U.S. Department of Commerce                                                Final Report IPE-18585
Office of Inspector General                                                              May 2008

Recommendation:

We recommend that the Under Secretary of Commerce for Oceans and Atmosphere and the
Administrator for the National Oceanic and Atmospheric Administration ensure that the
following actions are taken:
   22. To address issues of concern that arose during the DART and TAO transitions, revise
       NOAA’s administrative order on transitions, by requiring transition plans to do the
       following:
           a. Define data collection requirements and procedures in sufficient detail to enable
              the operations organization to understand and meet, as appropriate, the data
              requirements of the research organizations and other users.
           b. Justify the transition from research to operations and document how the benefits
              outweigh the costs.
           c. Identify the amount and source of funds needed to cover the costs associated with
              the transition, as necessary, including relevant requirements for equipment
              upgrades, staff training, and maintenance of redundant operational capabilities
              during the transition period.
           d. Outline how the operating organization will address the evolving needs of the
              research organization after the transition, as appropriate.



NOAA agreed to update its administrative order on transitions to describe specific requirements
for transition plans, as detailed in our recommendation. NOAA is also updating its Business
Operations Manual to include transition plan requirements. We request that NOAA provide a
copy of the revised administrative order and Business Operations Manual when completed.

D. Post-transition buoy research and development efforts for existing platforms are not
   adequately coordinated

Although NDBC assumed responsibility for the DART and TAO programs, both the center and
PMEL are conducting research to improve the systems’ designs. Each organization has tailored
the research to meet its specific needs. But NOAA management may not be monitoring their
efforts sufficiently to ensure they are not duplicative and that they consider NOAA-wide needs.
NDBC engineers are designing a standardized buoy platform to support weather, DART, and
TAO buoy programs. Congress provided $1 million for this effort in NOAA’s FY 2006 budget.
Meanwhile, PMEL engineers are developing (1) an easy-to-deploy buoy to replace the current
DART design and (2) a TAO buoy crawling sensor to improve subsurface observations. The two
organizations are aware of each other’s development efforts but have not coordinated them or
considered each other’s needs. In fact, each has questioned the value of the other’s efforts.

NDBC states that a standardized buoy platform will benefit its current buoy programs in several
ways. For example, at present, certain buoy parts are not compatible across the weather, DART,
and TAO platforms. Standardizing equipment could make many spare parts interchangeable
among all three buoy programs. Greater standardization could allow NDBC to service more



                                               49
U.S. Department of Commerce                                                 Final Report IPE-18585
Office of Inspector General                                                               May 2008

weather buoys on a single service mission by allowing technicians to swap a deployed buoy with
a replacement buoy and then service the formerly deployed buoy on the ship’s deck while in
transit to the next buoy location, where the newly-serviced buoy could be swapped with the
deployed buoy. NDBC already used a similar process in servicing its TAO buoys, as does the
Government of Canada in servicing its west coast weather buoys. NDBC anticipates that the new
design will still allow some flexibility for adding weather and oceanographic sensors to buoys as
needed, but the center did not consult with other NOAA programs in detail about their needs for
future buoy platforms before establishing the design criteria.

PMEL engineers expect their easy-to-deploy buoy will result in significant cost savings because
it is designed for deployment by smaller vessels (such as fishing boats) that do not have heavy
lift equipment. NDBC staff stated that PMEL has not yet articulated viable maintenance or
servicing plans for maintaining this new buoy design, which they felt could be difficult and
costly. PMEL acknowledged that it had not yet established how the new buoys would be
maintained. One NDBC manager commented that “the buoy may be easy to deploy, but also
hard to maintain.” Additionally, PMEL did not consider the needs of weather buoys in designing
the new platform, and the initial design does not support key weather instruments such as
anemometers.

PMEL’s experimental crawling sensor for the TAO buoys is intended to take continuous
measurements of subsurface ocean conditions at various depths. If successful, this sensor could
provide more complete information than is available from the TAO’s current sensor, which
measures ocean conditions at several discrete locations. It is not clear whether the new sensor
will be compatible with NDBC’s planned platform standardization, and the crawling sensor may
not be ready in time for deployment as part of the refresh of the existing TAO subsurface
sensors. At this time, NOAA is scheduled to continue purchasing replacements for the current
generation of subsurface sensors through 2013. However, if the crawling sensor is operationally
proven before 2013, NOAA could be in the position of continuing to buy older generation
subsurface sensors for the TAO array when a superior design is available. To prevent this
outcome, NOAA should ensure that PMEL and NDBC collaborate on the crawling sensor effort.
NDBC officials should be involved in the sensor’s development so that they can plan for its
deployment and ensure that the end product meets the center’s operational requirements.
Additionally, NOAA officials should ensure that NDBC does not continue to purchase
replacement sensors of the current generation if a better design has been proven and is ready for
deployment.

The success of these buoy improvement projects is not guaranteed at this time, and all designs
may or may not have a future role in NOAA buoy operations. However, coordination between
PMEL and NDBC on these projects is not adequate and NOAA headquarters officials are not
actively working to improve and facilitate such coordination, in part because NDBC and PMEL
report to separate line offices within NOAA. We remain concerned that, while the research
projects may meet the needs of the organization leading the research, better outcomes may be
possible if these efforts are more closely monitored and coordinated.




                                               50
U.S. Department of Commerce                                                  Final Report IPE-18585
Office of Inspector General                                                                May 2008

Recommendations:

We recommend that the Under Secretary of Commerce for Oceans and Atmosphere and the
Administrator for the National Ocean and Atmospheric Administration ensure that the following
actions are taken:

   23. Assign responsibility to the appropriate organization within NOAA to continuously
       monitor current and future buoy development efforts at NDBC and PMEL to make sure
       that (1) they are not duplicative and (2) their design specifications consider the needs of
       all relevant NOAA organizations, as appropriate.
   24. Ensure that current and future research efforts for programs that have been transferred to
       operations are coordinated with the relevant operational office.



NOAA concurred with our recommendation to monitor current and future buoy development
projects. NOAA noted that some degree of research and development overlap can result in
greater discovery and program improvement, but agreed that redundant and unnecessary
duplication should be avoided. The response noted that NOAA’s Research Council is looking at
the organization’s research portfolio to balance transformational research—that which leads to
the next generation of products—with research and development for operationally-driven
requirements. We request that NOAA provide a status update on the Research Council’s efforts
as part of its action plan. In response to our recommendation on research efforts supporting
operational programs, NOAA indicated that it will include appropriate language on coordinating
research efforts with relevant operational offices in the updated administrative order on
transitions and the NOAA Business Operations Manual.




                                               51
U.S. Department of Commerce                                                  Final Report IPE-18585
Office of Inspector General                                                                May 2008

                        SUMMARY OF RECOMMENDATIONS

We recommend that the NOAA Assistant Administrator for Weather Services and
National Weather Service Director ensure that the National Data Buoy Center takes the
following actions:
   1. Regularly monitor the results of contractor service visits and review Coast Guard and
      contractor trip reports, proactively addressing issues or concerns expressed in those
      reports (see page 8).
   2. Support the contractor’s pre-trip planning process as necessary to ensure effective
      engagement with Coast Guard staff in planning service visits (see page 8).
   3. Ensure that the support services contractor takes the following actions:
          a. Maintains complete and accurate records on existing buoy configurations.
          b. Establishes and documents a set of standard procedures for all on-site service
              visits that, at a minimum, directs technicians to (1) verify data transmission before
              leaving the site, (2) update information on the buoy’s configuration, as necessary,
              and (3) document the repairs or maintenance performed during the service visit.
          c. Improves pre-trip planning for buoy service visits by (1) preparing field service
              plans prior to the service visit and (2) convening pre-trip planning meetings for
              the buoy technicians, contractor management, NDBC staff, and Coast Guard staff
              to review the service plan and anticipated schedule.
          d. Ensures that buoy technicians receive adequate training to enable them to
              maintain and repair buoys and follow required reporting procedures (see page 8).
   4. Require the support services contractor to do the following:
          a. Define the service intervals necessary to maintain data availability from weather
              buoys according to past performance of the buoys and their critical components
              and, as resources permit, establish service intervals to more accurately reflect
              observed service performance and equipment reliability.
          b. Ensure that sufficient staff and parts are available to support service visits before
              scheduling them with the Coast Guard (see page 11).
   5. Work with the Coast Guard and the support services contractor to identify the
      information that the Coast Guard requires for future service visits. Ensure that the
      contractor provides all available information to the Coast Guard on future service needs,
      including details about the past number of unscheduled service visits in specific Coast
      Guard regions. As necessary, modify future task orders to specify what additional
      information the contractor should provide regarding future service requirements (see page
      11).
   6. After more clearly defining required service intervals and working with the Coast Guard
      to more effectively use its resources, define any remaining gap between actual ship
      transport requirements and available resources from the Coast Guard and other sources,
      and begin planning to address such transit shortages, if any (see page 11).
   7. Work with the support services contractor to identify and prioritize long-term part
      requirements and develop and implement a plan to address them (see page 16).
   8. For the acoustic current and salinity sensors recently deployed on weather buoys:


                                               52
U.S. Department of Commerce                                                   Final Report IPE-18585
Office of Inspector General                                                                 May 2008

           a. Develop and test a reliable design and establish an appropriate, sustainable
              maintenance schedule for the sensors; and
           b. Only deploy the sensors on buoys for which NDBC can sustain required
              maintenance schedules (see page 17).
   9. In the future, before wide deployment, evaluate any new instrument on a limited number
      of buoys to demonstrate the instrument’s reliability and the feasibility and adequacy of
      the center’s maintenance schedule for the instrument (see page 17).
   10. Before extending the term of the support services contract beyond the 5-year base:
           a. Obtain a formal legal opinion from OGC on the length of the contract term and
               the ability of NDBC to execute an award-term that was not priced at the time of
               the contract negotiation. As necessary, request approval for a FAR deviation from
               the Procurement Executive.
           b. Clarify the government’s and the contractor’s rights related to the extension of the
               contract beyond the 5-year base term, if applicable, including whether the
               government is legally obligated to award additional terms if the contractor meets
               performance targets.
           c. Negotiate labor rates for additional contract terms, certify that these rates are
               competitive through market research and/or bids from other companies, and
               submit them for review and approval by the Defense Contract Audit Agency (see
               page 20).
   11. Recompete the contract without exercising any extensions to the base term if concerns
       regarding the contract’s extension provision cannot be resolved (see page 20).
   12. For future acquisitions with financial performance incentives, develop a fee structure that
       holds the contractor more accountable for performance results and does not reward
       unsatisfactory or poor performance or provide for significant fee payments for
       performance that is only satisfactory (see page 23).
   13. Evaluate the feasibility of developing separate acquisition strategies or making multiple
       awards under its existing ID/IQ contract for tasks that are not inherently connected to
       buoy construction, maintenance, and repair functions, such as data management,
       inventory management, and office support functions (see page 26).
   14. If NDBC determines that a single contractor remains in the best interest of the
       government, it should better justify its decision to limit competition for required support
       services (see page 26).
   15. Evaluate and adjust as necessary all of the performance metrics in the task orders and
       overall surveillance plan for its support services contractor to ensure they (1) give
       adequate weight to NDBC’s core objective of maintaining data availability; (2) contain
       performance goals that are consistent and closely linked with the data availability goals
       developed for the center by NOAA; and (3) account for documented factors outside of
       the contractor’s control, as appropriate (see page 32).
   16. Promptly complete required performance assessment plans for its support services
       contract, including the award-term plan and overall surveillance plan for the contract (see
       page 35).


                                                53
U.S. Department of Commerce                                                    Final Report IPE-18585
Office of Inspector General                                                                  May 2008

   17. Define the role of the NDBC director’s customer service scores and allowable range of
       scores in each relevant surveillance plan (see page 35).
   18. Prepare all future surveillance plans prior to the start of task order periods and ensure full
       and prompt disclosure to the contractor of all future performance assessment
       methodologies, especially those that materially affect its support services contractor (see
       page 35).
   19. Improve its review of contractor invoices by: (1) establishing and documenting the
       process and procedures for reviewing invoices submitted by the contractor which, at a
       minimum, require knowledgeable program officials to review and approve invoices; and
       (2) verifying that the process and procedures are being followed by all parties involved,
       including those of the contracting officers, assistant COTRs, and finance personnel (see
       page 39).
   20. Develop a formal process to respond to emerging needs of key users of buoy data and
       provide updates to the requesting organizations on the status of all requests. If the center
       determines that it does not have the resources to meet a request, it should communicate
       this information to the requesting organization and NWS Director so that NOAA can
       prioritize and plan to address the request by another means if appropriate (see page 44).
We recommend that the Under Secretary of Commerce for Oceans and Atmosphere and
the Administrator for the National Oceanic and Atmospheric Administration ensure that
the following actions are taken:
   21. Require NOAA’s research organizations to adequately document and retain the technical
       specifications and maintenance procedures for research systems so that this information
       can be made available to ensure their effective operations if and when those systems are
       transferred to NOAA’s operational components (see page 46).
   22. To address issues of concern that arose during the DART and TAO transitions, revise
       NOAA’s administrative order on transitions, by requiring transition plans to do the
       following:
           a. Define data collection requirements and procedures in sufficient detail to enable
              the operations organization to understand and meet, as appropriate, the data
              requirements of the research organizations and other users.
           b. Justify the transition from research to operations and document how the benefits
              outweigh the costs.
           c. Identify the amount and source of funds needed to cover the costs associated with
              the transition, as necessary, including relevant requirements for equipment
              upgrades, staff training, and maintenance of redundant operational capabilities
              during the transition period.
           d. Outline how the operating organization will address the evolving needs of the
              research organization after the transition, as appropriate (see page 48).
   23. Assign responsibility to the appropriate organization within NOAA to continuously
       monitor current and future buoy development efforts at NDBC and PMEL to make sure
       that (1) they are not duplicative and (2) their design specifications consider the needs of
       all relevant NOAA organizations, as appropriate (see page 49).


                                                 54
U.S. Department of Commerce                                                  Final Report IPE-18585
Office of Inspector General                                                                May 2008

   24. Ensure that current and future research efforts for programs that have been transferred to
       operations are coordinated with the relevant operational office (see page 49).
We recommend that the Chief Financial Officer and Assistant Secretary for
Administration ensure that the Department takes the following actions:
   25. Issue guidance for Commerce contracting officers on the proper use of award-term
       incentives, borrowing from DOD, NASA, or other sources of such guidance, as
       appropriate (see page 42).
   26. Prepare a departmental administrative order (a) clarifying the role, responsibilities, and
       authorities of the Commerce Acquisition Review Board and (b) specifying how
       contracting officers should resolve concerns raised by the board or otherwise address the
       board’s recommendations before proceeding with procurement actions or contract award
       (see page 42).




                                               55
APPENDIX A: NOAA RESPONSE TO DRAFT REPORT




                   56
57
58
59
60
61
62
63
64
65
66
67
68
69
   APPENDIX B: CHIEF FINANCIAL OFFICER AND ASSISTANT
SECRETARY FOR ADMINISTRATION RESPONSE TO DRAFT REPORT




                         70
71
72
